<html>
<title> - AFGHANISTAN'S IMPACT ON PAKISTAN</title>
<body><pre>[Senate Hearing 111-295]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-295
 
                    AFGHANISTAN'S IMPACT ON PAKISTAN 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-243 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Bearden, Milt, former CIA Station Chief in Islamabad, Reston, VA.     6
    Prepared statement...........................................     8
Coll, Steve, president, New America Foundation, Washington, DC...    11
    Prepared statement...........................................    13
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lodhi, Hon. Maleeha, public policy scholar, Woodrow Wilson 
  Center, former Pakistani Ambassador to the United States, 
  Washington, DC.................................................    16
    Prepared statement...........................................    20
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4

                                 (iii)

  


                    AFGHANISTAN'S IMPACT ON PAKISTAN

                              ----------                              


                       THURSDAY, OCTOBER 1, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Casey, Shaheen, Kaufman, 
Lugar, Corker, Barrasso, Wicker, and Inhofe.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Good morning, everybody. Thank you for taking time to be 
with us. I thank our witnesses.
    Next week marks the ninth anniversary of the war in 
Afghanistan. A Pentagon officer said the other day that we 
haven't been fighting there for 8 years; we've been fighting 
for 1 year eight times in a row. That needs to change.
    Some of our objectives have remained steadfast: Defeat al-
Qaeda, deny them safe havens, and ensure the stability of the 
region. Others have fluctuated. And the previous 
administration, both the goals and the strategy lurched in 
directions that confused our troops, our allies, and our 
partners. None of those partners is more affected by our 
actions in Afghanistan than Pakistan. I think many people have 
agreed that Pakistan is a central focus of our policy 
considerations, no country in that region more vital to our 
national security. Pakistan is a democracy with 170 million 
people, a large nuclear arsenal, and a major challenge from 
extremists within its borders.
    It's no secret that the relationship between our countries 
has suffered its share of strains. Many Pakistanis believe that 
the United States has exploited them for strategic goals. In 
fact, a recent survey by the Pew Research Center finds that two 
out of three Pakistanis actually regard the United States as an 
enemy. Only 1 in 10 describe us as a partner. So, at the very 
least, we have a communications challenge, and the question is, 
What else?
    From our side, it's been difficult to build trust with 
Pakistan's military and intelligence service over the years, 
because our interests have not always been aligned and because 
ties between ISI and Taliban remain troubling. We need to fix 
this relationship. And may I say, in fairness, the current 
government and many of its officials--most recently, General 
Pasha of the ISI, has been here in Washington, General Kayani 
and others--have made very significant progress in this effort. 
It may not yet be translated down into the body politic of the 
country, but there has been a very significant level of change 
in the--many elements of the relationship. And, in fact, it is 
the judgment of the administration--and my judgment, I hope 
shared by colleagues--that many things have moved forward in 
Pakistan in ways that they haven't in Afghanistan. There has 
been progress in Pakistan.
    In addition, the Senate took a major step in trying to 
change this relationship, last week, by passing legislation 
that Senator Lugar and I introduced, and which all of the 
committee supported, to triple our nonmilitary assistance to 
Pakistan to $1.5 billion a year for the next 5 years. And the 
reason we did this is specifically to try to build a 
relationship with the people of Pakistan, to point out to them 
that what we want is a relationship that, in fact, meets their 
interests and their needs.
    The House, I'm pleased to say, passed the bill yesterday, 
and the President has pledged to sign it. And we look forward 
to seeing its implementation.
    This is a landmark change in the relationship. It's not a 
panacea, and I think both Senator Lugar and I would be quick to 
emphasize that. A lot more is going to be needed--more money, 
more change in policy, more investment by the governments 
themselves, and by officials. It will not solve all of 
Pakistan's problems, but it is a very significant 
transformation in the fundamentals of the relationship. And, in 
the end, only Pakistanis will define the future of that 
relationship.
    But, the Kerry-Lugar initiative signals our determination 
to put the relationship on a new foundation, with the 
aspirations of the people of Pakistan front and center. We 
don't want a government-to-government centric relationship; we 
want the American people and the Pakistani people both sharing 
a value investment, if you will, through this initiative.
    Just as we strengthen our civilian ties, we also have to 
understand, our actions in Afghanistan have profound 
implications for the security status across the Durand Line. We 
cannot repeat the mistakes of the past when we pulled out of 
Afghanistan in 1989 and left the job undone. A flood of guns, 
drugs, and refugees swept over Pakistan, and its leaders 
reacted by supporting the Taliban and other militant groups. 
President Obama and his team are in full-fledged effort to 
reevaluate and develop all of the right tweaks, if you will, 
the right calibrations to our policy for our strategy for 
Afghanistan, and only then can we really make the right 
decisions on resources. That decision has to reflect our 
commitment to the Afghan people and to the security of the 
United States.
    Let me be clear, no matter what strategy we adopt, it must 
recognize that the actions we take in Afghanistan will have 
direct repercussions in Pakistan.
    So, we're here this morning to examine these potential 
repercussions. We want to understand the implications and 
impacts of the scenarios under discussion at the White House 
and elsewhere. As we know, the Congress of the United States 
has clearly defined, historical, and well-accepted 
responsibilities with respect to the conduct of foreign policy 
and the conduct of war. And it is important for us to fulfill 
those responsibilities.
    For example, we need to know what the impact on Pakistan 
would be of a major troop increase in Afghanistan. Would 
successful nation-building in Afghanistan, in fact, translate 
into greater stability in Pakistan and elsewhere across the 
region? Or, to the contrary, does a troop increase in 
Afghanistan have negative consequences for our goals in 
Pakistan, and might it, in fact, add to the destabilization, as 
some in Pakistan in high positions of power have suggested?
    The debate has to extend beyond the preoccupation with 
troop numbers. We need to know beyond, How many troops do you 
need? What does the manual say? What happens, here? We really 
need to know, Can you build a legitimate government in 
Afghanistan, particularly in the restive Pashtun belt in the 
east and southeast that is of the greatest concern to Pakistan? 
And we need to know how the Pakistani military and intelligence 
services might react to a different strategy in Afghanistan.
    We also need to understand--this is not the center focus of 
this hearing today, but I think it's relevant, because of the 
questions being asked publicly, and the discussion--our goal, 
as stated by the President, in Afghanistan is to disrupt, 
dismantle, and defeat
al-Qaeda, and prevent their ability to return to be a safe 
haven and plot against the United States. That is the stated 
mission. That is not a full-fledged nationwide 
counterinsurgency mission, unless the latter is absolutely 
essential to the accomplishment of the former. And that is 
something we need to very carefully examine, and it's part of 
the discussion today because of the question of, What are the 
implications of that prolonged effort and additional troops to 
the stability of Pakistan and to the long-term goals of the 
region?
    There's another goal stated by the President, and that is 
the stability of the region, with a particular focus on the 
stability of Pakistan.
    So, this is the committee's third session that is designed 
to test the underlying assumptions about the war in 
Afghanistan, and really to stimulate the kind of debate that 
most distinguishes this body--the United States Senate--and 
that will help us, in the end, to clarify our goals, to build a 
consensus.
    Senator Lugar and I share the belief, and we have often 
said, that American foreign policy is never stronger than when 
it is bipartisan. And traditionally, when it's been at its 
best, it's been bipartisan. There are great examples of that in 
the course of history; and one of the greatest, with Senator 
Arthur Vandenberg, in a period when the United States had 
enormous responsibilities abroad. So, we want to continue the 
effort to try to see if we can get politics to end at the 
water's edge, and to find the policy that best serves our 
troops; because, in the end, folks--and I say this from some 
personal experience--the troops are best served when the people 
here in Washington find a way to produce a policy that lives up 
to the high sacrifice that they're called on to make. And 
that's what we need to do.
    Next week, we're going to hear about how to deal with the 
worldwide threat from al-Qaeda. And I think that's very 
important, because al-Qaeda is not just tangentially affecting 
Afghanistan and centered in Pakistan, but it's in some 58 or 59 
other countries, with an increased presence in Yemen and 
Somalia and the Horn of Africa. And we need to think about what 
the best ways to deal with that are.
    We also need to clarify this approach if we're going to use 
our military resources as wisely as we ought to, and obtain the 
consent and cooperation of the American people. Let me 
emphasize. The consent of the American people, in the end, is 
the fundamental part of this equation. We know that, also, from 
experience. And if we lose the consent because we haven't been 
clear and we haven't asked the right questions, then we have 
not only not done our jobs, but we may well have betrayed our 
own interests. And so, it is important for us to do that in the 
course of this deliberation.
    I want to, again, emphasize that our actions in 
Afghanistan, in my judgment, whatever they are, will influence 
events in Pakistan, and we need to take that into account. But, 
the ultimate choices, again, about the country's future, about 
Pakistan's future, must be made--and will be made, in my 
judgment--by the Pakistanis themselves.
    The witnesses this morning are very well positioned to help 
us answer these questions. And I want to thank you all for 
coming.
    Ambassador Maleeha Lodhi was Pakistan's top diplomat in 
Washington for two tours between 1994 and 2002. Few people 
better understand the complexities that bind and divide our two 
countries.
    Milt Bearden is a legendary former CIA case officer and a 
clearheaded thinker and writer. He was the agency's station 
chief in Islamabad in the 1980s, at the height of the United 
States-Pakistan effort to defeat the Soviets in Afghanistan.
    Steve Coll is president of the New America Foundation. He 
spent years working in, and writing about, Afghanistan and 
Pakistan. His Pulitzer Prizewinning masterwork, ``Ghost Wars,'' 
remains the seminal volume on the pre-9/11 years in those two 
countries.
    So, we are very, very pleased to have this expertise here 
today, and I look forward to hearing Senator Lugar's comments 
and then your testimony.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I thank the chairman for holding this 
important hearing.
    As our previous hearings have demonstrated, the choices 
confronting the United States and NATO in Afghanistan and 
Pakistan are not simple. The threats to U.S. national security 
in the region are both real and profound, but they are also 
largely indirect. Meanwhile, we know that expanding United 
States military involvement in Afghanistan would proceed during 
a period of severe economic challenge for our own country. It 
also would take place at a time of continuing strain on our 
military forces and amidst questions about alliance cohesion. 
Given these factors, as we review our approach to the region, 
we must avoid trial and error, in favor of a comprehensive plan 
that includes, not just military elements, but also makes 
progress on development, governance, other facts that directly 
affect the stability and welfare of these countries.
    The U.S. Congress has taken an important step forward this 
week, as Senator Kerry has pointed out, by passing the Enhanced 
Partnership with Pakistan Act. This bill represents a long-
overdue investment in diplomacy and development in the region. 
I look forward to the President's signature on the bill, and 
the productive engagement with Pakistan that it is designed to 
produce.
    As several of our witnesses pointed out last week, the 
rationale for increasing United States commitments in 
Afghanistan depends heavily on our expectations of how events 
there might affect stability in Pakistan. Although we should 
not diminish Afghanistan's strategic, symbolic, or humanitarian 
importance, it is clear that one of the most important goals of 
an enlarged American commitment to Afghanistan would be the 
preservation and potential enhancement of stability in 
Pakistan.
    Pakistan has roughly five times as many people as 
Afghanistan, and possesses nuclear weapons. Its stability has 
implications throughout the Middle East and South Asia. It also 
is contending with an al-Qaeda sanctuary, an expanding Islamic 
insurgency, political uncertainty and a shaky economy.
    These circumstances are a threat to Pakistan, the region, 
and the United States. With this in mind, we must ask what 
impact our efforts in Afghanistan have on events in Pakistan. 
Do aspects of our current military posture in Afghanistan 
aggravate the situation in Pakistan? Would increasing the 
intensity of our counterinsurgency activities in Afghanistan 
benefit stability across the border? Would a government 
collapse in Afghanistan, coupled with significant advances by 
the Taliban, threaten to destabilize Pakistan?
    When the President moves forward, it is essential that he 
lead public discussion on Afghanistan and Pakistan, and begin 
to put his own stamp on the assessments completed by his 
experienced advisers. His initial statements in March served 
only as guideposts. He must now clarify the best advice 
Secretary Gates and Clinton, and their respective institutions, 
have provided to achieve our national security goals in the 
region. Many questions have arisen surrounding troop levels; 
civilian force levels, contractor rules, the role development, 
to name just a few. Any decisions the President makes will be 
for the long term and will require significant United States 
investment in diplomacy, development, and defense. His plan 
will require broad support of Congress if it is to be sustained 
and funded.
    I believe it is possible to develop a strong consensus on 
the way forward. Both Senator McCain and then-Senator Obama 
campaigned in the last Presidential election on the importance 
of a sustained commitment to Afghanistan and Pakistan. The 
strategic imperative of this region has not diminished, even if 
events in one or the other country have given us pause to 
reconsider our approach.
    I look forward to our continuing inquiries on this issue, 
and I join the chairman in welcoming our distinguished 
witnesses.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    We'll start with Mr. Bearden, then we'll go to Mr. Coll 
and, Madam Ambassador, we'll--you'll be a cleanup hitter.
    Thank you.

    STATEMENT OF MILT BEARDEN, FORMER CIA STATION CHIEF IN 
                     ISLAMABAD, RESTON, VA

    Mr. Bearden. Mr. Chairman, Senator Lugar, members of the 
committee, I thank you for the opportunity to appear before you 
today.
    The Chairman. Can you pull the mike a little closer there--
just pull the whole thing, the box.
    Mr. Bearden. There we go. OK.
    I thank you for the opportunity to appear before you today 
to discuss the possible effects on Pakistan of our future 
strategies in Afghanistan.
    The Senator rightly pointed out that we're beginning our 
ninth repetition of a 1-year war in Afghanistan. I would only 
add that we consider that we're not beginning our 9th year, 
that, in fact, we're completing our 28th year of involvement 
since the December 1979 invasion of Afghanistan by the Soviet 
Union, and, by President Carter's instruction to the CIA, to 
provide lethal and nonlethal assistance to the people of 
Afghanistan to resist that invasion.
    We are, indeed, approaching 30 years in Afghanistan, and 
we, indeed, have yet to get it right. I think we're at a 
critical moment, where the decisions made by the government, at 
this point, will affect not only Afghanistan, but the entire 
region, certainly including Pakistan.
    As we discuss this entire sweep of American involvement in 
Afghanistan, we should remember some of the lessons we learned 
from the Soviet experience, and from the British experience, 
before that, and from every invader to Afghanistan since 
Alexander the Great ventured in.
    The Soviets spent 10 years, with an average troop strength 
of 120,000. This was always enough to fuel an insurgency, but 
never enough to defeat that insurgency. By the time Mikhail 
Gorbachev took over as General Secretary of the Communist Party 
of the Soviet Union, the fourth in as many years, the Soviet 
Union had become completely bogged down in Afghanistan. Mikhail 
Gorbachev gave his generals 1 year to turn it around. They 
couldn't do it, and he returned to the negotiating tables in 
late 1987, and, in April 1988, signed the Geneva Accords and 
was out of the country 10 months later.
    At that point, after 10 years of involvement with the 
Government of Pakistan, the ISI, and the Pakistan military, the 
United States turned its back on both Pakistan and Afghanistan 
and simply walked away. I would only add that the United States 
was more than preoccupied with the denouement of the Soviet 
Union, which I think they managed quite expertly; but, in 
Pakistan and Afghanistan, events were left to chance.
    Not only did we turn our backs on Afghanistan, by 1990 we 
had slapped sanctions on Pakistan, broken off military-to-
military contacts with the Pakistan Army, contacts that had 
established a relationship between the two militaries over a 
generation, a key relationship that was lost in the ensuing 
decade without such contact.
    Then came 9/11/2001. And Pakistan, with or without a real 
choice, signed on with the United States. The United States and 
Pakistan were allied during the 10-year occupation by the 
Soviet Union, working with the peoples of Afghanistan and 
welcomed by the people of Afghanistan. That role has reversed, 
today. We're viewed, as is the government in Islamabad, as 
enemies of the Pashtun population, a group referred to by most 
of us as simply, ``Taliban.'' But in fact we're facing a 
broader resistance, of one form or another. And so, this 
current battle has flowed back into Pakistan, across the Durand 
Line, enveloping the North West Frontier, the Pashtun areas of 
Pakistan, and has reached into the settled areas, and even as 
far as Lahore and Karachi and the Sindh, in the south.
    Whatever we do, whatever measures we take, will affect 
Pakistan as the central element in this drama. Moreover, I 
think that we will be unable to come up with a policy that 
makes any sense unless we step back a few meters, look at the 
entire region, and try to understand what everybody in the 
region is up to.
    America is bogged down in a war. We're spending our blood 
and borrowed treasure to fight a battle that is creating the 
conditions for others to benefit. I'm not making any 
accusations against any given country in the region. All of 
them are looking out for their vital interests. But, India is 
becoming involved in Afghanistan to an extent that the 
Pakistanis consider Afghanistan as developing into an Indian 
garrison. This is not hysteria. This is a real concern. 
Pakistan has fought three very real wars. And, when you discuss 
this thing, without emotion, with Pakistan army officers, or 
ISI, as I have repeatedly, over the years, you will understand 
these concerns.
    You will see that China has its own interests in the 
region. They have taken on a 25-percent share of a huge copper 
operation in Afghanistan. They're building a major port in 
Pakistan at Gwadar. Meanwhile, the Indians, working with the 
Iranians, are doing the same thing across the border in Iran, 
on the Arabian sea, building a major port. You have China 
getting a naval anchor on the Arabian Sea in Pakistan; India 
and Iran doing exactly the same thing across the border in 
Iran. You have Russia, whose interest in hydrocarbons across 
the arc of northern Afghanistan is clear and growing. And we 
have the United States grasping for a policy.
    My suggestion would be that, rather than let this thing 
become a free-for-all while we're bogged down, that we at least 
assume that the United States, by its involvement in the region 
over the last 30 years, and in particular the last 8 years, use 
its stewardship of Afghanistan to bring about some order in the 
regional game that is being played. This is a resource-driven, 
21st-century version of the Great Game, a recreation of a Silk 
Route. But we are not, right now, able to manage that game.
    So, without understanding what Iran, Russia, China, 
Pakistan, and India are doing in the region, particularly in 
Afghanistan, I don't think we can come up with a policy that 
makes sense for Afghanistan or Pakistan.
    I promised to keep my remarks to no more than 5 minutes, 
and look forward to your questions.
    [The prepared statement of Mr. Bearden follows:]

 Prepared Statement of Milton A. Bearden, Former CIA Station Chief in 
                         Islamabad, Reston, VA

    Mr. Chairman, Senator Lugar, and members of the committee, I thank 
you for the opportunity to appear before you today to discuss U.S. 
strategy in Afghanistan and the possible effects on Pakistan of our 
future policies there.
                u.s. involvement, 8th year or 30th year?
    The search for a successful outcome in Afghanistan and neighboring 
Pakistan requires an understanding of how we arrived at this critical 
point in our Afghan undertaking, as well as new thinking on how we 
might proceed.
    I have been involved in the region since the mid-1980s, when I was 
ordered to Pakistan by CIA director Bill Casey to manage America's 
covert assistance to the Afghan resistance in their war against the 
occupation forces of the Soviet Union. I have remained active in Afghan 
and Pakistan matters in the intervening years, assisting in 2008, on 
the negotiations on legislation concerning Reconstruction Opportunity 
Zones in Pakistan and Afghanistan. More recently, I have been active in 
support of the United States Government's efforts to stabilize 
Afghanistan through development and business stability operations.
    As we discuss future policy options, we should bear in mind that 
America is not beginning its ninth year of involvement in Afghanistan; 
it is, rather, closing in on 30 years of intermittent association with 
a regional conflict that began with the Soviet Union's 1979, invasion 
of Afghanistan. It is a history of three decades of action, neglect, 
and reaction that have had profound effects on American security and on 
Afghanistan, Pakistan, and the other important players in the region.
                           the soviet debacle
    The Soviet invasion in 1979, was a gross miscalculation by the 
Soviet Politburo led by the ailing General Secretary Leonid Brezhnev. 
The Soviet leader concluded at the time that a limited contingent of 
Soviet forces would have the ``Afghan affair'' cleared up before the 
Americans might even take notice, weakened as America was, he believed, 
by its retreat from Southeast Asia and preoccupied by its hostage drama 
in Teheran. The initial Soviet foray was predictably and brutally 
efficient. The troublesome Afghan leader, Hafizullah Amin, was 
assassinated; Kabul was secured; and the Soviet's chosen ``emir,'' 
Babrak Karmal, was installed at the helm. But then events reverted to 
the traditional Afghan rhythm, taking on a life of their own. By the 
fifth year of occupation, the Soviet 40th Army had grown from its 
original limited contingent to a countrywide occupation force of around 
120,000. As the Soviet forces grew, so did the Afghan resistance. 
Though impossible to quantify accurately, by midpoint in the Soviet war 
there were probably about 250,000 full or part-time Afghan mujaheddin 
fighters. Soviet forces were constrained by the harsh terrain and 
infrastructural limitations to no more than about 150,000 troops before 
their supply lines would fray. They settled for about 120,000 over 
their 10-year occupation, a number more than adequate to fuel a full-
blown insurgency, but never enough to defeat it.
    By late 1986, Soviet efforts began to falter, and the new leader in 
the Kremlin, the fourth in as many years, Mikhail Gorbachev, declared 
the war a ``bleeding wound.'' He gave his commanders a year to ``turn 
it around.'' They couldn't; and by the end of the fighting season of 
1987, diplomatic activity intensified. On April 14, 1988, the Soviets 
signed the Geneva Accords ending their occupation; 10 months later, 
they were out of Afghanistan.
    And America turned its attention elsewhere.
    In the 9 years of their Afghan adventure, Soviet losses were at 
least 15,000 thousand troops killed, tens of thousands more wounded and 
thousands dead from disease. The Afghan population suffered horrendous 
losses--more than a million dead, about twice that number injured, and 
6 million driven into internal and external exile. It is instructive to 
view these numbers against those of the current American effort. While 
Afghan civilian casualties caused by coalition forces today average 
somewhat less than 1,000 per year, civilian casualties during the 
Soviet occupation averaged around 100,000 per year.
                   pakistan and the pashtun question
    As it turned its attention away from Afghanistan, with civil war 
and chaos replacing hard fought victory, the United States would also 
adjust its relationship with Pakistan. No longer able to stave off 
congressionally mandated sanctions triggered by its nuclear weapons 
development program, Pakistan fell out of Washington's favor. In 1990, 
strict sanctions were imposed on Pakistan, and military-to-military 
contacts were cut. Those measures would remain in place for more than a 
decade, during which the U.S.-Pakistan alliance that dated back to the 
1950s and the Baghdad Pact would change dramatically. The abrupt 
reversals in the bilateral relationship created an almost 
irreconcilable conviction within Pakistani military circles, and in 
particular the ISI, that the United States will always leave Pakistan 
in the lurch when it decides once again to retire from the region, 
views that officers in the Pakistan Army and the 151 have conveyed to 
me on many occasions in the past. That discussion is once again at 
heated levels in Pakistan today, as it is in the United States. The 
consequences, therefore, of any decision to increase or diminish the 
U.S. effort in Afghanistan will have far-reaching effects in Pakistan.
    Pakistan's role, led by Inter-Services Intelligence (ISI) during 
the 1980s had been central to the defeat of Soviet forces in 
Afghanistan. Not only did Pakistan serve as the conduit for all U.S. 
and international aid to the Afghan resistance and the population, but 
its Pashtun North West Frontier Province provided both safe haven for 
the the Afghan mujaheddin and refuge for their families. The Pashtuns 
of Pakistan were also an endless source of recruits for the Afghan 
resistance. These tribals straddling the Durand Line recognize the 
British demarkation of their lands only when it is to their rare 
advantage; otherwise ``zero line,'' as they call it, is largely 
ignored. Any outside force fighting Pashtuns in Afghanistan, therefore, 
will also have to deal with the Pashtuns in Pakistan.
    Every foreign occupation of Afghanistan eventually ends up as a 
fight with the Pashtun tribals. That was true during the 19th century 
British era and the Soviet era that followed a century later. It is 
true today. It is part of the Afghan playbook, as written by the 
Afghans themselves, and followed by each consecutive outside power that 
ventures in. The Pashtun population confronting those outside forces 
who march into Afghanistan includes not only the roughly 15 million in 
Afghanistan, but the 25 million or so in Pakistan, as well. Pashtuns 
will always rise to the fight, but they can also quiet down once a 
threat subsides, or if a proper deal is offered.
                          the indian question
    Any oral history of Pakistan invariably begins with the line, ``in 
the beginning, there was India.'' As the current phase of American 
operations in Afghanistan enters its ninth year, India has become 
firmly entrenched in what has always been viewed by Pakistan as it's 
rear area. After the United States, India is the second largest 
contributor to Afghan development projects. Working with Iran, India is 
developing the Iranian port of Chabahar on the Arabian Sea coast near 
the Gulf of Oman. Chabahar will provide India access to oil and gas 
resources in Iran and the Central Asian states. Plans for road and rail 
construction linking Afghanistan and Chabahar port by the Indian 
Government are also ambitious, as are burgeoning contacts at all levels 
between the Indian and Afghan Governments. Afghan President Karzai, was 
educated in India, and is viewed by most Pakistanis as beholden to New 
Delhi. Never, in the past 30 years, has Afghanistan appeared so 
potentially hostile to Pakistan and friendly to India.
    Though Pakistani concerns over Indian involvement in Afghanistan 
have in the past been dismissed by American officials as overwrought, 
they are nonetheless real; and it is correct that these concerns are 
being taken more seriously now by the United States. Pakistan Army and 
151 officers I have known over the years have been realistic in 
conveying to me their deep concerns regarding India, a country with 
which they have fought three costly wars. Indeed, General McChrystal, 
in his Commander's Initial Assessment dated August 30, 2009, correctly 
acknowledges the delicacy of Indian involvement in Afghanistan as it 
impacts in Pakistan. McChrystal writes, ``Indian political and economic 
influence is increasing in Afghanistan, including significant 
development efforts and financial investment. In addition, the current 
Afghan Government is perceived by Islamabad to be pro-Indian.'' 
McChrystal also points out that increasing Indian influence in 
Afghanistan is likely to exacerbate regional tensions and encourage 
Pakistani countermeasures in Afghanistan or India.
    If there were a precipitous reduction of American force in 
Afghanistan, or an outright withdrawal, we should expect the Pakistani 
Government and its military, including a very capable ISI, to take 
whatever measures they thought necessary counter Indian influence in 
Afghanistan. Such an escalation could rapidly increase and amplify the 
regional tensions, with perhaps disastrous consequences. The Pakistan 
Army has had the vision of creating what it called a Strategic Regional 
Consensus, a loose nexus between Pakistan, Afghanistan, Iran, and 
Turkey as a massive and secure rear area for its 60-year confrontation 
with India. Those dreams, first explained to me by the late President 
Muhammad Zia ul-Haq, were never realized, and their time may have 
passed; but were the United States to retire from the field in 
Afghanistan, a new, and more risky jockeying between nuclear-armed 
Pakistan and India would most surely ensue. This would prompt even 
greater Afghan-Indian collaboration, which would only fuel Pakistani 
conviction that Afghanistan is becoming an ``Indian garrison.'' The 
prospects for miscalculation in such an atmosphere are grave.
                          the regional players
    Below the noise level of military operations is the involvement of 
other regional players in what is developing into a modern version of a 
Central Asian Great Game. China, viewed by Pakistan as its most 
reliable ally, is jockeying for position in Afghanistan, partly as a 
counterweight to growing Indian influence and partly to advance its own 
long-term economic goals in the region--the quest for natural 
resources. China has also built a new, turnkey Pakistani port at Gwadar 
on the Arabian Sea, in Pakistan's Baluchistan province, a project China 
acknowledges as having strategic value matching that of the Karakoram 
Highway, completed by the Chinese in 1986, and linking Pakistan with 
Xinjiang. In addition to Gwadar serving as a potential Chinese naval 
anchor, Beijing is also interested in turning it into an energy-
transport hub by building an oil pipeline from Gwadar into China's 
Xinjiang. The planned pipeline will carry crude oil from Arab and 
African sources. Inside Afghanistan, China has secured an interest in 
the the huge (estimated $88 billion) copper deposits in Aynak, in Logar 
Province south of Kabul. China is also interested in the massive iron 
deposits in Hajigak, west of Kabul.
    Hydrocarbon and mineral deposits in the arc from Herat in the west, 
across northern Afghanistan are in play with Iran, China, and Russia. 
In effect, the other regional players are busily setting the stage for 
exploitation of Afghanistan's natural resources, while the United 
States remains bogged down with the war. This should change.
         the future of u.s. military operations in afghanistan
    The default position on whether a foreign power should or should 
not venture into Afghanistan with large-scale forces is usually a 
simple, ``don't go.'' But America is eight long and troubled years 
beyond any reconsideration of that default position. We're in, and we 
have to see it through, if only with a greatly redirected strategy. 
Though the initial American contingent that toppled the Taliban regime 
and set
al-Qaeda on the run involved less than 300 American special operations 
forces and CIA officers, U.S. and international forces now number 
around 100,000, with a mission that seems unclear to both its critics 
and its supporters. Some Afghans see the American role as simply 
protecting a corrupt government and the status quo; many more Pashtuns 
see the United States as the protectors of a Tajik Panjshiri-controlled 
government.
    The current debate seems to center on whether or not to increase 
U.S. forces by as many as 40,000 additional troops. If the troop 
increases are intended to advance a new strategy designed to allow a 
modicum of security and justice to develop, perhaps guided by the 
Afghans themselves, and to create an economic stake that would become 
available to more Afghans, such increases could be a good idea. If, 
however, the increases are considered a ``surge'' to feed greater 
levels of kinetic operations, such a strategy will likely fail as the 
war escalates. Thoughtful Soviet post-war assessments of their Afghan 
debacle have concluded that with anything less than half a million 
troops on the ground, no outside force could expect to ``pacify'' 
Afghanistan. In reaching that conclusion, Soviet analysts were also 
aware of the sheer impossibility of supporting a force of that size, 
even with Afghanistan being contiguous to the U.S.S.R. That analysis, 
and the constraints included in it, apply to the American intervention 
today. A marginal surge in support of a military solution will 
accomplish little, absent a new, broader strategy.
                             a way forward
    In addition to creating the conditions for greater security and 
justice for the Afghan people, the United States might use its 
stewardship in Afghanistan to work toward an orderly marshaling of the 
regional players in developing that country's natural resources, 
deriving, in the process, the maximum possible benefit to the Afghan 
people themselves. Instead of a free for all race for Afghanistan's 
resources, the United States could provide the leadership to ensure 
that the regional players contribute to Afghan stability as they pursue 
their own valid and vital economic interests, rather than revive the 
zero sum game that has characterized competition in Afghanistan over 
the last 8 years. Any outside investment in Afghanistan should have the 
positive effect of providing alternatives to endless conflict for 
Afghans, most of whom would make the right choices if offered security, 
justice, and a stake in an economy. Only the United States can make 
that happen.
    Indeed, rather than contemplate withdrawing from Afghanistan, the 
United States will have little choice but to redirect its forces to 
provide greater security in selected regions, and make a virtue of 
necessity by taking the lead in working with the regional players in 
the major investment and development schemes already underway.
    Once again, thank you for this opportunity to appear before this 
committee. I look forward to your questions.

    The Chairman. Well, thank you. That's a very cogent, 
thoughtful oversight, and I'm sure it will prompt a number of 
questions, and we really appreciate the thinking.
    Mr. Coll.

  STATEMENT OF STEVE COLL, PRESIDENT, NEW AMERICA FOUNDATION, 
                         WASHINGTON, DC

    Mr. Coll. Thank you, Mr. Chairman, Senator Lugar. Thank 
you, members of this committee, for this chance to testify 
about the effects of United States policy in Afghanistan on the 
stability and political evolution of Pakistan.
    I thought both of the opening statements framed the 
questions very, very well, and I'll just briefly add a 
perspective looking at the regional security context.
    I'll start with a statement of American interests in this 
conflict. You know, obviously the success of Pakistan, by which 
I mean its emergence as a stable, modernizing, prosperous, 
pluralistic, country at peace with its neighbors and with its 
own borders and integrated economically into South and Central 
Asia, is obviously an important and even vital interest, not 
only of the United States, but of the entire international 
community.
    Over the years--over the last 20 years, the history that 
Milt described, one obstacle--not the only obstacle, but one 
obstacle--to the emergence of such a Pakistan has been the 
persistent view, within its security services and elsewhere in 
its elites, that the United States will--certainly since 9/11, 
the view that the United States will abandon the region once it 
has defeated and disabled al-Qaeda. That has been our pattern 
of behavior, in their view, and Milton described the episode 
that gave rise to that perception. It is based in fact.
    Pakistani generals correctly fear, today, that a 
precipitous American withdrawal from Afghanistan would be 
destabilizing; that it would strengthen Islamist radical 
networks including but not limited to the Taliban, who are 
today destabilizing Pakistan as well as the wider region.
    Where it gets complicated is that I think, alternatively or 
concurrently depending on the individual, there are sections of 
the Pakistani military, and even the civilian elite, who also 
fear that the United States may be, today, collaborating with 
India, naively or deliberately, to weaken Pakistan by 
supporting governments in Kabul that are, at best, hostile to 
Pakistani interests and, at worst, facilitating what some 
imagine to be Indian efforts to destabilize, disarm, or even 
destroy the Pakistani state.
    The Pakistan military's tolerance of the Taliban--
historically and, I think, currently--and similar groups, is 
routed in the belief that Pakistan requires unconventional 
forces, in addition to a nuclear deterrent, to offset India's 
conventional military and industrial superiority. This self-
defeating logic--as I see it, anyway--of existential insecurity 
has informed Pakistan's policies in Afghanistan because 
Pakistani security services and their leaders have seen an 
Indian hand in Kabul, since the days of the invasion.
    And I'm not suggesting that it's entirely illusory. As Milt 
described, India continues to invest deeply in Afghanistan 
today. These Pakistani commanders tend to interpret India's 
goals in Afghanistan as a strategy of encirclement of Pakistan, 
punctuated by the tactic of promoting instability among 
Pakistan's own Pashtun, Baluch, and Sindhi populations.
    Pakistan has countered this perceived Indian strategy over 
the years by developing Islamist militias, such as the 
predominantly Pashtun Taliban and the Punjab-based--type as 
proxies for Pakistan in regional conflicts and as a means to 
destabilize India, or at least hold it off-balance.
    As for the United States role, Pakistani generals have 
tended to see it as inconstant and unreliable, based on the 
pattern of here-and-gone United States engagement in the past 
and the narrow definition of United States interests in 
Pakistan, and they've also tended to believe that the United 
States, as I say, is today lashing itself to an Indian-based 
strategy in South Asia.
    So, what does this imply, as you asked, for United States 
policy in Afghanistan today? There's quite a lot to chew on 
there, but let me just mention a few things, in broad strokes.
    If the United States signals to the Pakistan military 
command now that it intends to abandon efforts to stabilize 
Afghanistan, or that it has set a short clock running on the 
project of Afghan stability, or that it intends to undertake 
its regional policy primarily through a strategic partnership 
with India, then it will only reinforce the beliefs of those in 
the Pakistani security establishment who argue that nursing the 
Taliban is in the country's national interests. This, in turn, 
in my view, will exacerbate instability in Pakistan itself, 
which is the opposite of United States goals.
    At the same time, if the United States undertakes a heavily 
militarized, provocative, increasingly unilateral policy in 
Afghanistan, without also adopting an aggressive--or, rather 
than adopting an aggressive political reconciliation in 
regional diplomatic strategy that more effectively incorporates 
Pakistan into efforts to stabilize Afghanistan, then it will 
also reinforce the beliefs of those in the Pakistani security 
services that they need the Taliban as a hedge.
    Between withdrawal signals and militarization, there is a 
more sustainable strategy, one that I hope that the Obama 
administration is in the process of defining. It would make 
clear that the Taliban will never be permitted to take power by 
force in Kabul or major cities; it would seek an enforced 
stability in Afghan population centers, but emphasize politics 
over combat, urban stability over rural patrolling, Afghan 
solutions over Western ones; and it would incorporate Pakistan 
more directly into creative and persistent diplomatic efforts 
to stabilize Afghanistan and the region.
    Such a sustained policy, combined with heavy new 
investments in Pakistan's success, even beyond--and I was 
encouraged to hear the chairman say--even beyond the 
extraordinarily important achievements of the Kerry-Lugar 
legislation that has to be a beginning, this is the path to 
provide the best chance that Pakistan's Army will, over time, 
continue to share power and accept strategic advice from 
civilians, and eventually conclude that it is in its own 
interests, the national interests of Pakistan, to cast out the 
Taliban and similar groups as a mechanism to defend the country 
against India. And that, in turn--that decision is ultimately 
the best path to a modernizing, politically plural, 
economically integrated and successful South Asia.
    Thank you.
    [The prepared statement of Mr. Coll follows:]

 Prepared Statement of Steve Coll, President, New America Foundation, 
                             Washington, DC

    Thank you for this opportunity to testify about the effects of U.S. 
policy in Afghanistan on the stability and political evolution of 
Pakistan.
    It seems useful to begin with an assessment of where U.S. interests 
in Pakistan are located. The success of Pakistan--that is, its 
emergence as a stable, modernizing, prosperous, pluralistic country, at 
peace with its neighbors and within its borders, and integrated 
economically in South and Central Asia--is important, even vital, not 
only to the United States but to the broader international community. 
The nuclear danger in South Asia alone argues for risk-taking 
investments in Pakistan's success. In addition, any durable American 
``exit strategy'' from Afghanistan will depend upon the emergence of a 
stable Pakistan that is moving toward normalization with India and the 
reduction of extremism within its borders.
    For nearly four decades, Pakistan's struggle to achieve its 
constitutional and founding ideals of democracy, pluralism, and a 
culture rooted in a modernizing Islam have been impeded in part by the 
spillover effects of continual warfare in Afghanistan. These spillover 
effects have influenced the militarization of Pakistanis politics, 
encouraged the development of a ``paranoid style'' in Pakistani 
security doctrines, and more recently, helped to radicalize sections of 
the country's population.
    The United States today is a catalyzing power in this same, 
continual Afghan warfare. U.S. actions in Afghanistan since 2001 have 
amplified the debilitating spillover effects of the Afghan war on 
Pakistan. To name a few examples: The lightly resourced, complacent 
U.S. approach to Afghanistan following the ouster of the Taliban in 
late 2001 effectively chased Islamist insurgents into Pakistan, 
contributing to its destabilization. Dormant, often directionless U.S. 
diplomacy in the region failed to bridge the deepening mistrust among 
the Kabul, Islamabad, and New Delhi governments after 2001, or to 
challenge successfully the Pakistani military's tolerance of Islamist 
extremist groups, including the Afghan Taliban. In Pakistan itself, the 
United States relied for too long and too exclusively on former 
President Pervez Musharraf and failed to challenge his marginalization 
of political opponents or his coddling of Islamist extremists. During 
these years, narrowly conceived, transparently self-interested U.S. 
policies caused many Pakistanis to conclude, to some extent correctly, 
that the American presence in their region was narrowly conceived, 
self-interested, and ultimately unreliable.
    A recent poll of Pakistani public opinion carried out by the Pew 
Global Attitudes Project found that only 16 percent of Pakistanis have 
a favorable view of the United States.\1\ That discouraging number has 
been more or less consistent since 2001; the only time it spiked, to 
just above 25 percent, was in 2006, after the United States pledged 
$500 million in aid to Pakistan and after it played a visible and 
significant role in an earthquake relief effort in Pakistani-held 
Kashmir. The Senate's recent unanimous passage of the Kerry-Lugar bill, 
providing $1.5 billion in aid to Pakistan for each of the next 5 years, 
offers a foothold to begin shifting U.S. policy in a more rewarding 
direction. However, it would be a mistake to underestimate the depth of 
the resentments and sources of instability in Pakistan that now 
confront the United States. A poll carried out by Gallup and Al Jazeera 
in July asked a sample of Pakistanis what constituted the biggest 
threat to Pakistan's security. Fifty-nine percent answered that it was 
the United States, followed by 18 percent who named India and only 11 
percent who named the Taliban. \2\
---------------------------------------------------------------------------
    \1\ ``Pakistani Public Opinion: Growing Concerns About Extremism, 
Continuing Discontent With U.S.,'' The Pew Global Attitudes Project, 
August 13, 2009.
    \2\ ``Pakistan: State of the Nation,'' Al Jazeera, August 13, 2009. 
http://english.aljazeera.net/focus/2009/08/2009888238994769.html.
---------------------------------------------------------------------------
    The measure of American policy in Pakistan, of course, is not 
American popularity but Pakistan's own durable stability and peaceful 
evolution. However, the dismal view of the United States held across so 
many constituencies in Pakistan today--particularly the widespread view 
that U.S. policy in Afghanistan and along the Pakistan-Afghan border 
constitutes a grave threat to Pakistan--is a sign that U.S. 
policymakers must think much more deeply, as this committee is doing, 
about how the U.S.-led campaign against al-Qaeda and the Taliban will 
reverberate in Pakistan during the next 5 to 10 years.
    There is no unitary, homogenized Pakistan for the United States to 
effect by its actions in Afghanistan. Instead, there are distinct 
Pakistani constituencies, some in competition with each other, which 
will be impacted in different ways by the choices the United States now 
makes in Afghanistan. These include the Pakistani military and security 
services; the country's civilian political leadership; its business 
communities and civil society; and the Pakistani public.
    Broadly, the purpose of U.S. policy in the region, including in 
Afghanistan, should be to strengthen Pakistani constitutional politics 
and pluralism; to invest in the Pakistani people and civil society; to 
enable the Pakistani military to secure the country while preserving 
and enhancing civilian rule; and most critically of all, to persuade 
the Pakistani military and intelligence services that it is in 
Pakistan's national interest to pursue normalization and economic 
integration with India and to abandon its support for proxy Islamist 
groups such as the Afghan Taliban, Lashkar-e-Taiba, and others.
    This is the strategic prism through which U.S. policy choices in 
Afghanistan today should be evaluated.
    One obstacle to the achievement of these goals is the deeply held 
view within the Pakistani security services that the United States will 
abandon the region once it has defeated or disabled al-Qaeda. Pakistani 
generals correctly fear that a precipitous American withdrawal from 
Afghanistan would be destabilizing, and that it would strengthen 
Islamist radical networks, including but not limited to the Taliban, 
who are today destabilizing Pakistan as well as the wider region.
    Alternatively or concurrently, sections of the Pakistani military 
and civilian elite also fear that the United States may collaborate 
with India, naively or deliberately, to weaken Pakistan, by supporting 
governments in Kabul that at best are hostile to Pakistani interests or 
at worst facilitate Indian efforts to destabilize, disarm, or even 
destroy the Pakistani state.
    The presence and depth of these fears among the Pakistani elites 
implies that the United States should avoid taking actions in 
Afghanistan that reinforce this debilitating, self-defeating belief 
system within the Pakistani security services. It implies that 
Washington should, on the other hand, embrace those policies that are 
most likely to ameliorate or subdue such policies within Pakistan over 
time.
    Pakistan's historical, self-defeating support for the Taliban and 
similar groups is rooted in the belief that Pakistan requires 
unconventional forces, as well as a nuclear deterrent, to offset 
India's conventional military and industrial might. This logic of 
existential insecurity has informed Pakistan's policies in Afghanistan 
because Pakistani generals have seen an Indian hand in Kabul since the 
days of the Soviet invasion. They interpret India's goals in 
Afghanistan as a strategy of encirclement of Pakistan, punctuated by 
the tactic of promoting instability among Pakistan's restive, 
independence-minded Pashtun, Baluch, and Sindhi populations.
    Pakistan has countered this perceived Indian strategy by developing 
Islamist militias such as the predominantly Pashtun Taliban as proxies 
for Pakistan and as a means to destabilize India. As for the U.S. role, 
Pakistani generals see it as inconstant and unreliable, based on the 
pattern of here-and-gone U.S. engagement in the past, and they also 
tend to believe that the United States is today lashing itself, 
deliberately or naively, to Indian strategy in the region.
    This paranoid style in Pakistani security doctrine has been 
reinforced in several ways by U.S. actions in the region since 2001. As 
noted above, U.S. diplomacy has made an insufficient priority, until 
recently, of attempting to build constructive links between Kabul and 
Islamabad and to take pragmatic steps to persuade the Pakistani 
military that it has a stake in a stable Afghanistan free from the 
threat of Taliban rule. U.S. policy in Afghanistan has failed to 
develop a robust strategy of political negotiation, reconciliation, and 
national reintegration that would provide a platform for Pakistan's 
genuine security concerns. Then, too, the failure of the United States 
to invest deeply and broadly in Pakistani society, but to concentrate 
its aid in a narrowly based military government during the Musharraf 
period, only reinforced the assumption that the United States had once 
again hired out Pakistan as a regional ``sherrif'' and intended to 
disengage from South and Central Asia as soon as its mission against 
al-Qaeda was complete--just as the United States has done at comparable 
intersections in the past, including after the Soviet withdrawal from 
Afghanistan.
    What does this analysis suggest about the specific policy choices 
facing the Obama administration in Afghanistan today?
    If the United States signals to Pakistan's military command that it 
intends to abandon efforts to stabilize Afghanistan, or that it has set 
a short clock running on the project of pursuing Afghan stability, or 
that it intends to undertake its regional policy primarily through a 
strategic partnership with India, then it will only reinforce the 
beliefs of those in the Pakistani security establishment who argue that 
nursing the Taliban is in the country's national interests.
    To the extent that U.S. actions in Afghanistan reinforce this view 
within the Pakistani security services, it will contribute to 
instability in Pakistan and weaken the hand of Pakistani political 
parties and civil society in their long, unfinished struggle to build a 
more successful, more durable constitutional system, modeled on the 
power-sharing systems, formal and informal, that prevail today in 
previously coup-riddled or unstable countries such as Turkey, 
Indonesia, the Philippines, Argentina, and Brazil.
    If the United States undertakes a heavily militarized, increasingly 
unilateral policy in Afghanistan, whether in the name of 
``counterinsurgency,'' ``counterterrorism,'' or some other abstract 
Western doctrine, without also adopting an aggressive political, 
reconciliation, and diplomatic strategy that more effectively 
incorporates Pakistan into efforts to stabilize Afghanistan, then it 
will also reinforce the beliefs of those in the Pakistani security 
establishment that they need the Taliban as a hedge against the United 
States and India.
    If the United States adopts a ``counterterrorism only'' policy in 
Afghanistan and substantially withdraws from Afghanistan, it will risk 
deepening instability along the Pakistan-Afghan border, and it will 
reinforce the narrative of its failed, self-interested policies in 
Pakistan during the Musharraf period and in earlier periods, 
undermining the prospects for a Pakistan that evolves gradually toward 
internal stability and a constructive regional role.
    On the other hand, if the United States signals to Pakistan's 
military command that it intends to pursue very long-term policies 
designed to promote stability and prosperity in South Asia and Central 
Asia, and that it sees a responsible Pakistan as a decades-long 
strategic ally comparable to Turkey and Egypt, then it will have a 
reasonable if uncertain chance to persuade the Pakistani security 
establishment over time that the costs of succoring the Taliban and 
like groups outweigh the benefits.
    Between withdrawal signals and blind militarization there is a more 
sustainable strategy; one that I hope the Obama administration is in 
the process of defining. It would make clear that the Taliban will 
never be permitted to take power in Kabul or major cities. It would 
seek and enforce stability in Afghan population centers but emphasize 
politics over combat, urban stability over rural patrolling, Afghan 
solutions over Western ones, and it would incorporate Pakistan more 
directly into creative and persistent diplomatic efforts to stabilize 
Afghanistan and the region.
    That is the only plausible path to a modernizing, prosperous South 
Asia. It is a future within reach and it is a model for evolutionary 
political-military success already established in other regions of the 
world that recently suffered deep instability rooted in extremism, 
identity politics, and fractured civil-military relations, such as 
Southeast Asia and Latin America.
    The Obama administration needs to make an even greater effort than 
it already has to communicate publicly about its commitment to Pakistan 
and to the broader long-term goal of regional stability and economic 
integration. There is an emerging, bipartisan consensus within the 
Congress on Pakistan policy, as evidenced by the Senate's unanimous 
endorsement of the critically important Kerry-Lugar legislation. At the 
Pentagon and within civilian U.S. policymaking circles there is a much 
deeper understanding than previously about the centrality of Pakistan 
to U.S. interests and regional strategy, and about the need to engage 
with Pakistan consistently over the long run, nurturing that country's 
economic growth, healthy civil-military relations, civil society, 
pluralism, constitutionalism, and normalization with India. On Pakistan 
policy, Washington is perhaps on the verge of proving Churchill's quip 
that the United States always does the right thing after first trying 
everything else.
    And yet Kerry-Lugar should be seen as only a beginning. It is 
essential that the U.S. national security bureaucracy find ways to act 
with a greater sense of urgency, creativity, and unity on Pakistan 
policy. In Iraq and Afghanistan, because we are formally at war, 
American policy is often animated, appropriately, by a sense of 
urgency. Too often, this is not the case when it comes to Pakistan, 
even though Pakistan's stability and success is a central reason that 
the United States continues to invest blood and treasure in 
Afghanistan. As the Obama administration and Congress refashion and 
reinvest in Afghan policy over the next weeks, there will be an 
important opportunity to address this imbalance, in the way that policy 
is conceived, funded, and communicated.

    The Chairman. Again, also very helpful and much 
appreciated.

STATEMENT OF HON. MALEEHA LODHI, PUBLIC POLICY SCHOLAR, WOODROW 
   WILSON CENTER, FORMER PAKISTANI AMBASSADOR TO THE UNITED 
                     STATES, WASHINGTON, DC

    Ambassador Lodhi. Senator Lugar, and members of the 
committee, I'm honored to appear before you today. I speak, as 
you know, as a Pakistani citizen and not as a spokesperson for 
the government.
    Let me get straight to the point.
    The Chairman. I should mention--I don't think I did--that 
you are a public policy scholar at the Woodrow Wilson Center--
--
    Ambassador Lodhi. Yes.
    The Chairman [continuing]. And I failed to say that. But, 
thank you for the----
    Ambassador Lodhi. Thank you.
    The Chairman [continuing]. Distinction.
    Ambassador Lodhi. Thank you. So, let me get straight to the 
point. The core strategic objective that the United States 
seeks to achieve in Afghanistan is, Senator Kerry, as you 
quoted President Obama as saying, disrupt, dismantle, and 
defeat al-Qaeda. The key question is whether, to achieve this 
core goal, it is also necessary to pursue other objectives, 
such as fighting the Taliban, nation-building, trying to 
establish a centralized state in Afghanistan. And I think the 
challenge is to evolve an approach that doesn't destabilize 
Pakistan.
    Let me, at the outset, state that the choice for the United 
States should not be between an open-ended escalating military 
engagement and cut and run from Afghanistan. Both could be 
disastrous--for the region, for Pakistan, and, I think, for the 
United States, too. A precipitous withdrawal would repeat the 
strategic mistake of the 1990s, when the United States 
abandoned Afghanistan to the chaos that nurtured al-Qaeda. Nor 
should the West risk being trapped in a Vietnam-style quagmire, 
a war without end and with no guarantee of success.
    Pakistan's stability, as I know you are already aware, has 
been gravely undermined by what I call the ``twin blowback'' 
from Afghanistan. First, the Russian occupation--and I'm not 
going to list the witch's brew of problems that Pakistan 
inherited; you're well aware--2 million of the 3 million Afghan 
refugees are still in Pakistan today. Second, the unintended 
consequences of the 2001 United States military intervention, 
which increasingly pushed the conflict into Pakistan's border 
region and further fueled the forces of militancy.
    The conflicts in Afghanistan and Pakistan are interlinked, 
but they're also different and distinct. They are linked by the 
bonds of Pashtun ethnicity, a broadly shared ideology, common 
links to
al-Qaeda, and the two-way cross-border movement that does take 
place. But the two insurgencies are also different in important 
ways. The Afghanistan Taliban movement is older, more 
entrenched, has something of a command-and-control structure, a 
broader geographical presence, and a national objective, which 
is the ouster of foreign forces. The Tehrik-i-Taliban in 
Pakistan, as it is called, the Pakistani Taliban, is a loose 
conglomeration of a dozen groups with local origins and 
motives, and it is confined to part of the tribal areas which 
constitutes 3 percent of Pakistan's territory and 2 percent of 
Pakistan's population. It lacks command and control, especially 
after the death of its core group's leader, Baitullah Mehsud.
    It has been seriously disrupted by the Pakistan Army's 
operations in Swat, Bajaur, and, of course, the current 
military encirclement that is underway in South Waziristan. 
Most importantly and strategically, the Pakistani public has 
turned against the TTP, as it's called--the Pakistani Taliban. 
This, to my mind, places Pakistan in a better position than 
coalition forces in Afghanistan, something to which, Senator 
Kerry, you just alluded, to disrupt and eventually defeat the 
Pakistani Taliban. And this really reinforces a very important 
principle of counterinsurgency, which is that indigenous forces 
are better able to conduct such missions. But, the continuing 
conflict in Afghanistan, of course, does compound the problem, 
vis-a-vis Pakistan's response to the Taliban in the tribal 
areas, because continuing conflict can provide a fresh impetus 
to the Pakistani Taliban.
    On the Afghan side, the coalition force faces much greater 
challenges. And these challenges don't just come, of course, 
from the fraud-stricken Presidential election in Afghanistan, 
but they also come because foreign forces, as history attests--
and Mr. Bearden has recalled that history for us--foreign 
forces will always find it difficult to quell an insurgency 
that portrays itself as fighting for a national cause.
    So, a further military escalation in Afghanistan, in my 
opinion, is unlikely to succeed, for several reasons. I will 
very quickly list some of these and then get on to the negative 
consequences military escalation can have on Pakistan.
    First, military escalation is unlikely to succeed, because 
more troops will inevitably mean more intensified combat, even 
if the stated aim is to protect the population. The primary 
target,
al-Qaeda, can be neutralized in Afghanistan and in the border 
region with Pakistan if it is rejected and ejected from the 
Taliban ``sea'' in which it survives. Military escalation will 
push the Taliban even closer to al-Qaeda.
    Two, even enhanced troops will be insufficient, for all the 
reasons that Milt Bearden has described. The Soviets, let's 
remember, at the peak of the occupation, had 140,000 troops, as 
well as the support of a well-organized and professional Afghan 
Army, which, at its peak, was about 100,000 people. So, that's 
a lot of troops that were already there. And yet, we know that 
they failed to subdue the mujahideen.
    Military escalation will also raise the risks of 
casualties--Western casualties. It'll also increase economic 
costs for the West. So, I think the question is, Can Western 
forces absorb these rising costs in human lives as well as the 
economic costs?
    Four, something to which both my colleagues have alluded, 
an escalating war will also intensify regional rivalries among 
neighboring powers. Pakistan's concerns about India's growing 
role in Afghanistan is well known, so I will not elaborate, 
because I think we've heard sufficient elaboration. But, the 
impact of a surge will have at least five negative consequences 
for Pakistan.
    First, it will lead to an influx of militants and al-Qaeda 
fighters into Pakistan.
    Second, it will enhance the vulnerability of United U.S.-
NATO ground supply routes throughout Pakistan, creating what 
military strategists call the ``battle of the reverse fronts.'' 
In other words, NATO-U.S. forces will be confronting the 
insurgents with the supply lines behind the insurgents. I'm 
told by military strategists this is not a great policy to 
have, because of the increased vulnerability. Pakistan's 
forces, already overstretched--150,000 deployed in the border 
region and undertaking counterinsurgency--will have to protect 
the supply lines because supply needs will double.
    Third, such a military escalation will likely produce a 
spike in violent reprisals on mainland Pakistan.
    Fourth, it could lead to the influx of more refugees into 
Pakistan, with destabilizing effects in both the North West 
Frontier province and the restive province of Balochistan.
    And most importantly, and I think you would understand 
this, it could endanger, erode, and unravel the key public 
consensus that has been achieved in the past 1 year in Pakistan 
to fight the militancy.
    The alternative, as I said before, cannot be a unilateral 
withdrawal by United States coalition forces from Afghanistan, 
or indeed switch to the narrow counterterrorism approach, which 
is simply another variation of military escalation. This will 
be viewed as a strategic defeat, it will embolden the forces of 
extremism across the world, and strengthen the al-Qaeda/Taliban 
alliance.
    May I, Mr. Chairman, propose a third path, a comprehensive 
strategy that can pave the way for an indigenous Afghan 
solution and create the conditions for a gradual, progressive 
United States withdrawal, while leaving the region with 
relative stability. There are no easy options, as we all know. 
But, I think the challenge is to choose the best out of very, 
very difficult options.
    The question really isn't about troop levels, in my 
opinion, from a Pakistani perspective. It is not about military 
strategy as much as it is about having the right political 
strategy, and then having the military strategy that is 
consistent with such a political approach.
    So, a new strategy could consist of the following elements. 
I'll very quickly run through some of these. The military 
component obviously will continue to play a part, but it should 
encompass holding ground in a defensive military strategy, 
avoiding casualties, not multiplying enemies, and negotiating 
reciprocal cease-fires, wherever possible, at the local level.
    Economically, I think the economic footprint does need to 
be enhanced by supporting development and job creation at the 
local level.
    But, it is the central thrust of the strategy at the 
political level which is most important. And that, I would 
propose, should be aimed at seeking a political solution, 
drawing into the political process in Afghanistan and 
integrating within it excluded Pashtun groups, and those 
Taliban elements that can be decoupled from
al-Qaeda.
    Afghan leaders and military commanders from NATO, including 
United States commanders, have spoken frequently about the need 
for national reconciliation in Afghanistan. What has been 
missing, or lacking, is a political framework within which 
serious negotiations can be pursued and meaningful incentives 
can be offered to the insurgents.
    Talk with the insurgents will not be easy, and they may 
have to be opened, initially, through intermediaries, but this 
effort should aim at isolating and weakening the irreconcilable 
elements of the Taliban.
    What could be offered to the insurgents is to disavow al-
Qaeda, halt hostilities, support development, abide by the 
constitution, participate in the political process--the 
parliamentary elections in Afghanistan are due next year. 
Political parties, at present, are banned, they cannot contest 
those elections; I think the time has come to allow the people 
of Afghanistan the right to form political parties and contest 
in next year's parliamentary elections.
    And I think, in exchange, U.S.-NATO forces can offer a 
progressive withdrawal all foreign forces from Afghanistan. The 
aim should be to establish a decentralized political order that 
has existed historically in Afghanistan, and that reflects the 
country's complex ethnic mosaic and of course protects the 
rights of the minorities.
    If this can be agreed, and a regional compact can be forged 
amongst the neighboring states, then it may be possible to 
contemplate and envision a U.N./OIC peacekeeping force drawn 
from the Muslim countries as a transitional strategy, because 
such a force can help implement such an agreement; such a force 
cannot help forge such an agreement, but it can certainly help 
to enforce such an agreement. As I said before, this will not 
be quick, and it will not be easy. Talks may fail in the first 
instance, but, I think, if there is a hearts-and-minds effect 
that has to be created at the outset, this is the way to do it, 
to see how many of the Taliban elements can be peeled away from 
their alliance, which, by some indications, suggests that the 
alliance between some Taliban elements and al-Qaeda may be 
fraying. Talks is the only way to test that proposition or that 
hypothesis.
    A negotiated and progressive deescalation in Afghanistan 
will be beneficial to Pakistan. Pakistan will be able to manage 
its fallout. What Pakistan will find hard to manage is an open-
ended military presence in Afghanistan which shows no sign of 
making the kind of progress that will help to bring about 
stability.
    Finally, Mr. Chairman, I do want to say that the United 
States and the Western ability to isolate and eliminate al-
Qaeda and violent extremism in Afghanistan, Pakistan, and the 
rest of the Muslim world, depends critically not so much on 
military strength and counterinsurgency strategy as on the 
demonstration of the political will and capability to secure 
just solutions to the conflicts and problems that plague the 
Muslim world and that play on Muslim hearts and minds. It is 
this concrete commitment to justice from the United States that 
I believe will have a truly hearts-and-minds effect, and be a 
very important weapon to fight against extremism and militancy.
    Thank you Mr. Chairman.
    [The prepared statement of Ambassador Lodhi follows:]

Prepared Statement of Dr. Maleeha Lodhi, Public Policy Scholar, Woodrow 
    Wilson Center, Former Pakistan Ambassador to the U.S. and U.K., 
                             Washington, DC

    Mr. Chairman, and members of the committee, I am honored to appear 
before you today to provide a perspective from Pakistan, not as an 
official, but as someone who has had long experience both as a 
practitioner and writer on these important issues. I speak before this 
committee as a Pakistani citizen not as a spokesperson for the 
government.
    I welcome this debate and President Obama's commitment to a 
comprehensive and careful reassessment of U.S. strategy in Afghanistan.
    There is a famous line in Lewis Caroll's ``Alice in Wonderland'' 
which says: ``If you don't know where you are going, any road will take 
you there.'' In addressing the dire situation in which the U.S.-led 
coalition finds itself in Afghanistan, it is vital to identify the 
strategic objectives and a realistic plan to achieve these.
    What are the strategic objectives that the United States wants to 
achieve? The core objective as President Obama stated in March 2009 is 
to ``disrupt, dismantle and defeat al-Qaeda'' and protect the U.S. 
homeland from terrorist attack. The question is whether to attain this 
objective, pursuing other goals are also necessary: defeating the 
Taliban, undertaking ``nation building'' and establishing a centralized 
state in Afghanistan.
    The challenge is how to prevent Afghanistan and its border areas 
with Pakistan become a hub for terrorist networks that can threaten the 
region and the world.
    Let me at the outset state that the choice cannot be between cut 
and run from Afghanistan and an open-ended military engagement. Both 
will destabilize the region further: neither will succeed in realizing 
Washington's strategic goals.
    Any effort to pull out precipitously from Afghanistan would repeat 
the epic strategic error of the 1990s when the United States abandoned 
that country to the chaos that in turn nurtured al-Qaeda. But open-
ended military escalation risks trapping the West, in a Vietnam-style 
quagmire: a war without end and no guarantee of success.
    It is wise for this committee to consider the impact of any option 
on Pakistan. I wish this had also been done in 2001 and 1989.
    Pakistan's stability has been gravely undermined by three decades 
of conflict and strife in Afghanistan. The twin blowback from the 
Soviet invasion 30 years ago and the unintended consequences of the 
2001 U.S. military intervention has created unprecedented security, 
economic, and social challenges for Pakistan and contributed 
significantly to its systemic crises.
    Pakistan's involvement in the long war to roll back the Russian 
occupation of Afghanistan bequeathed a witches brew of problems 
including militancy, religious extremism, proliferation of weapons and 
drugs, and a huge number of refugees, 2 million of whom remain in 
Pakistan. Their camps continue to add to the challenges facing Pakistan 
today.
    The consequences of the 2001 intervention included fueling further 
the forces of militancy in Pakistan's tribal areas and producing 
ferment among the Pashtun tribes. The ramifications of installing a 
government in Kabul dominated by an ethnic minority were similarly 
deleterious. As the Afghan war was increasingly pushed across the 
border into Pakistan and Islamabad took action in its frontier regions, 
Islamic militants turned their guns on the Pakistani state and its 
security forces.
    It is easy to understand in this backdrop how militancy on both 
sides of the border between Pakistan and Afghanistan is interconnected. 
But it is also distinct in origin, goals, and magnitude.
    The conflict is connected, first, by common bonds of tribe and 
ethnicity; second, by the broad appeal of ideology; third, by links to 
al-Qaeda; and four, by the two-way cross-border movement of insurgents 
who provide each other a degree of mutual support.
    It is also distinct because; one, the origin of the Afghan Taliban 
is older and the movement is more entrenched with an organized command 
and control structure. Two, the Taliban have geographically a much 
broader presence in Afghanistan compared to the Pakistani Taliban whose 
support base is confined to part of the tribal areas, which constitute 
just 3 percent of the country's territory and represent 2 percent of 
the population. Three, there is greater confidence among the Afghan 
Taliban that they will prevail and outlast what they see as a foreign 
occupation force.
    In contrast to the ``national objectives'' of their Afghan 
``cousins,'' the Tehrik-i-Taliban Pakistan (TTP) is a loose 
conglomeration of a dozen groups that primarily have local origins, 
motives, grievances, and ambitions. It lacks central command and 
control. Its core group led by Baitullah Mehsud has suffered a serious 
reversal by his death and the Pakistan military's aggressive actions to 
blockade and contain his followers in South Waziristan.
    Most importantly public sentiment in Pakistan has now turned 
decisively against the TTP, leaving the organization in a position to 
launch periodic suicide missions, but not expand its influence. The 
Pakistani Taliban today stands discredited in the country and without 
public backing are in no position to extend their sway. But the 
continuing conflict in Afghanistan and the perceived obligation to help 
a movement resisting an alien force provides the TTP with its main 
motivation, mobilizing rationale and legitimacy among its tribal 
support base.
    Pakistan is in a better position than the coalition forces in 
Afghanistan to disrupt, contain, and ultimately defeat its ``Taliban,'' 
by building on the success of the recent operation in Swat and the 
tribal area of Bajaur. Within 4 months of the military action launched 
against the Swat branch of the TTP in the northwestern part of the 
country the Taliban have been driven out of Malakand region, their 
advance into neighboring areas has been halted and the writ of the 
government has been reestablished. Over 90 percent of displaced people 
who were forced to evacuate ahead of the fighting have returned to 
their homes, defying doomsday predictions. The Pakistan army has 
demonstrated improved tactics and counterinsurgency capabilities.
    This reinforces the point that Pakistan has the capacity to deal 
with the threat of militancy by its own efforts, but without the 
compounding complications engendered by the fighting across its border. 
It is also a reminder of the most important lesson of 
counterinsurgency: indigenous forces are better able to undertake 
successful missions.
    On the Afghan side, U.S. and coalition forces will face much 
greater difficulties against the insurgency especially if the present 
military and political strategies remain unchanged and also when a 
fraud-stricken Presidential election in Afghanistan has denuded the 
country of a legitimate government. The ongoing strategic review and 
the debate that is underway are timely and critical.
    One response being proposed to this dire situation is a substantial 
surge of military forces. This raises the question: To what end, at 
what cost and with what chances of success? Although many will see the 
parallel as odious, history cannot be cast aside; the Soviet Union 
deployed 140,000 troops at the peak of its occupation but failed to 
defeat the resistance.
    If the central objective is to disrupt and defeat al-Qaeda in 
Afghanistan and Pakistan's border region can this be achieved through a 
military escalation? Has the situation improved or deteriorated after 
previous military surges? So far the presence of more troops has 
increased militant activity and support for the Taliban. Even if the 
stated aim is to protect the population, more troops will mean 
intensified fighting with the Taliban.
    But al-Qaeda can only be neutralized in Afghanistan and in the 
border region with Pakistan if it is rejected by and ejected from the 
Taliban ``sea'' in which it survives. This urges a strategy to separate 
the two movements by military, political, and other means. A strategy 
of military escalation will push the two closer and strengthen their 
links rather than erode them.
    For the purposes of the strategy review and for consideration by 
the members of this committee, let me offer three possible scenarios 
for what could happen in Afghanistan:

    (1) Military escalation: This will inevitably be directed at the 
Taliban and will likely evoke even more hostility from the country's 
Pashtun-dominated areas and closer cooperation between al-Qaeda and the 
Taliban thereby further impeding the core objective of eliminating al-
Qaeda. Although the Taliban do not represent all Pashtuns, they do 
exploit Pashtun grievances and use the foreign presence as a 
recruitment tool.
    If history is a guide in this graveyard of empires, a military 
solution is also unlikely to succeed for several reasons:

          (i) The enhanced military forces will still be insufficient 
        to ``hold'' the countryside: independent estimates suggest that 
        the Taliban now have a permanent presence in over 70 percent of 
        Afghanistan. If Moscow with 140,000 troops supported by a more 
        professional Afghan army of 100,000 could not succeed against 
        the mujahideen, why should it be any different in a country 
        whose people have historically united against outsiders?
          (ii) Escalation will inevitably lead to mounting Western/
        American casualties, which will erode further public support in 
        both the United States and Europe. The insurgents can absorb 
        higher losses and fight on. Pakistan has incurred 7,500 
        casualties among its security personnel (dead and injured). Can 
        Western forces envision such heavy losses and still count on 
        public support for the war?
          (iii) The economic cost of the war will also escalate. Will 
        Western Parliaments preoccupied with economic recovery and 
        burgeoning debt burdens agree indefinitely to defray the 
        growing costs of an unending Afghan war?
          (iv) Escalation will likely intensify rivalries among the 
        neighboring powers in a region where a subterranean competition 
        is already in play. Pakistan's concerns about India's role in 
        Afghanistan are well known. Moreover if the West's 
        confrontation with Iran on the nuclear issue intensifies, there 
        will be consequences in Afghanistan (and Iraq) that will have 
        to be factored in.
          (v) Reliance on a surge conveys the signal that the United 
        States is only applying a military solution and is bereft of 
        other nonmilitary components of strategy. This is at odds with 
        the comprehensive approach that President Obama promised to 
        implement in March 2009.

    As for the impact on Pakistan, further military escalation on its 
border is fraught with great risk. Far from diminishing the threat of 
instability this will enhance it, for many reasons. Let me list five:

          (i) It will likely lead to an influx of militants and al-
        Qaeda fighters into Pakistan and an arms flow from across the 
        border.
          (ii) Enhance the vulnerability of U.S.-NATO ground supply 
        routes through the country as supply needs will likely double. 
        This will create what military strategists call the ``battle of 
        reverse front'' in which U.S. forces will have their supplies 
        ``located'' behind the insurgents. Protecting these supply 
        lines will also overstretch Pakistani troops, 150,000 of which 
        are at present engaged in border security and 
        counterinsurgency.
          (iii) It could lead to an influx of more Afghan refugees 
        which can be especially destabilizing in the restive province 
        of Balochistan.
          (iv) A surge in Afghanistan can be expected to produce a 
        spike in violent reprisals in mainland Pakistan.
          (v) Most important, intensified fighting and its fallout, 
        could erode and unravel the fragile political consensus in 
        Pakistan to fight the TTP and counter militancy. Pakistan's 
        recent success against militants needs to be reinforced not 
        endangered.

    A second scenario is a unilateral withdrawal by U.S. forces without 
a political settlement. This could be accompanied by what is being 
called a remote-controlled counterterrorism strategy, involving an air 
war focused on al-Qaeda.
    This scenario is also fraught with great danger. It will be viewed 
in the region and beyond as a defeat, will embolden the forces of 
violent extremism across the world and strengthen and even solidify the 
al-Qaeda/Taliban alliance.
    It is necessary to consider a third scenario: one that involves a 
new strategy to pursue a political solution that seeks to integrate 
excluded Pashtun groups and those Taliban elements into the Afghan 
political process that can be de-coupled from al-Qaeda. President Hamid 
Karzai and American and British military commanders have frequently 
called for reconciliation efforts but what has been absent is a 
political framework in which serious negotiations can be pursued and 
which offers real incentives to the insurgents to abandon violence.
    This will ultimately involve negotiations for a progressive 
reduction of Western forces from Afghanistan in return for the 
insurgents agreeing to a number of conditions. Fashioning a new 
political structure, that provides a power-sharing arrangement to bring 
in underrepresented Pashtuns, will help to neutralize the insurgency in 
southern and eastern Afghanistan.
    Even if the central leadership of the Taliban refuse to engage in 
talks this will offer a concrete way to co-opt and peel away local 
Taliban commanders. There are indications that the alliance between al-
Qaeda and many Taliban elements is fraying. Talks will offer 
opportunities to test this.
    Political engagement, even if it does not at first succeed, will 
represent a meaningful ``hearts and minds'' effort that can also help 
create the conditions to isolate the irreconcilable elements among the 
Taliban.
    A plan of action to achieve such a political solution will involve 
the following elements:
A. Military
    (1) Hold ground in defensible military encampments. Avoid creating 
pockets of vulnerability that risk higher casualties. This will enable 
the conduct of talks from a position of some strength.
    (2) Restrict offensive operations except in retaliation/self-
defense.
    (3) Negotiate reciprocal cease-fires at the local level with 
different actors including local Taliban commanders.
    (4) Restrict air strikes only to terrorist targets based on 
verified intelligence; avoid civilian casualties.
B. Economic
    (5) Focus on economic development and job creation at the local 
level, building capacities region by region through local communities.
C. Political
    (6) Launch a national reconciliation initiative to draw in more 
Pashtuns into the political process. Open talks with the insurgents 
initially through credible intermediaries. Set out the terms of the 
dialogue by asking the various Taliban elements to disavow al-Qaeda, 
halt hostilities and support development efforts and the buildup of 
Afghan security forces. This will need to be accompanied by the 
willingness of U.S.-NATO forces to accept a progressive withdrawal from 
Afghanistan.
    (7) Seek to involve as many Afghan players (political and tribal 
leaders, local powerholders) as possible in the reconciliation process.
    (8) Allow political parties to contest next year's parliamentary 
elections (banned at present) to ensure that the reconciliation efforts 
are consolidated.
    (9) Ensure that the expansion of Afghan security forces is not 
ethnically skewed. At the moment it is, to the disadvantage of 
Pashtuns.
    (10) Promote a political arrangement that once worked in 
Afghanistan: a loose, decentralized political and administrative order 
which strikes a balance between and reflects Afghanistan's ethnic 
composition and protects the rights of all minority groups.
C. Regional
    (11) Forge a regional compact between neighboring states especially 
ensuring support from Pakistan, Iran, and Saudi Arabia for such a new 
political order in Afghanistan.
    (12) Promote a formal accord between Pakistan and Afghanistan that 
includes Kabul's recognition of the Durand Line.
D. International
    (13) Consider a U.N./OIC peacekeeping force drawn from Muslim 
countries to implement an agreement once it is reached.

    Achieving this outcome will neither be quick nor easy. But 
Pakistan's stability will be helped not hurt by a progressive, orderly 
deescalation in Afghanistan. Pakistan will be able to manage its 
aftermath as a negotiated end to conflict in Afghanistan will be 
salutary for its future stability. It will further deflate the 
ideological appeal and political motivations of the TTP and other 
militants.
    Pakistan's long-term stability however will depend on a number of 
other factors:

    (1) Continuing and consolidating public support for security 
operations against militants. In this context U.S. drone attacks, 
tactically regarded as effective are strategically costly as they erode 
public support and consensus. The lesson from the use of air power in 
the Middle East should not be ignored where this has had an intensely 
radicalizing effect.
    (2) The capacity of the state to provide effective governance in 
the post-conflict regions including Swat.
    (3) Financial stabilization and economic revival. The U.S.-
supported IMF injections have led to a modicum of financial stability. 
But ensuring sustainable growth, adequate job creation, social 
stability and reversing militancy will require larger infrastructure 
and social sector investment and trade access for Pakistani products in 
the United States and European markets. Market access through a free 
trade agreement can help Pakistan become a competitive producer, 
attract foreign investment and serve as a base for exports to the West.
    (4) In Pakistan's fragile political situation U.S. actions should 
not contribute to the breakdown of the national consensus against 
violent extremism by escalating demands on Pakistan. Efforts to 
determine Pakistan's security paradigm and decide on its priorities 
undermine that consensus.
    (5) Addressing Pakistan's security concerns vis-a-vis India and 
promoting a peaceful settlement of Kashmir.
    (6) The ongoing public debate in Pakistan about the benchmarking of 
U.S. economic assistance to Pakistan is a reminder how such 
conditionalities erode much of the hearts and minds effect as they 
reinforce the transactional nature of the bilateral relationship that 
Pakistanis so resent and strengthens rather than breaks from the 
paradigm of treating the country as hired help rather than a valued 
ally.

     In conclusion, it should be emphasized that the United States and 
Western ability to isolate and eliminate al-Qaeda and violent extremism 
in Afghanistan, Pakistan, and other Arab and Muslim countries will 
depend critically, not so much on military strength and 
counterinsurgency strategy, as on the demonstration of the political 
will and capability to secure just solutions to the conflicts and 
problems in the Islamic world: the Palestine question, Afghanistan, 
Kashmir, and Iraq.
    It is this concrete commitment to justice and genuine economic 
cooperation in the interest of the poor and deprived in the Muslim 
world that will succeed in turning the tide against extremism and 
militancy.

    The Chairman. Well, thank you very much, Madam Ambassador.
    I repeat again, I think all three testimonies are really 
enormously helpful in framing the interests here, and the 
questions here. And there really are just so many questions 
that leap out of each of the testimonies, so we've got a good 
number of Senators here, and we want to have a chance to dig 
in.
    Let me frame, quickly--I want to emphasize one thing. I 
think it's appropriate in your testimony to talk about the 
impact of a potential total withdrawal, et cetera. But, 
nobody--I want to emphasize--nobody that I know of up here is, 
in fact, proposing that. And that's not the debate that I think 
we're having. I think the question we're having is, Recognizing 
the legitimate interests that you have defined and others have 
defined, what is the method by which we best achieve them, sort 
of--you know, meeting those interests, serving those interests? 
And it may be that some people will have a different sense of 
what those interests are, it may be that we--there are some who 
want to expand them, but we all understand, there are some base 
interests--basic interests that are there, and they are not 
served by just, sort of, walking away. So, I don't see that as 
on the table. I don't think there's anyone up here talking 
about that, so I don't think we need to, kind of, go to that 
part of this discussion.
    The question is, sort of, What strategy works? And what are 
the basic assumptions--maybe one should even use the word, in 
some cases, ``truths''--what are the basic truths, that we need 
to begin to accept as you think about, ``OK, here's how we 
respond to that''?
    Now, you've set forth five very powerful and important 
notions of what happens if we put additional fighters into 
Afghanistan. You've said that a surge and an escalation--and 
maybe that assumes it's a certain kind of surge, too. It could 
be that you put additional troops in, but they're for a very 
different kind of purpose than what we've done previously, and 
therefore, it maybe acceptable to accomplish something. I think 
we have to examine that premise. But, assuming that a surge in 
escalation, sort of, was more of the same, you say it will lead 
to a further influx of militants and al-Qaeda fighters into 
Pakistan. You said it would enhance the vulnerability of U.S.-
NATO ground supply routes through Pakistan, creating a battle 
of the reverse front; we've seen some of that already in 
caravans that have been attacked near the Khyber Pass, near 
Peshawar, et cetera. You say it would produce a spike in 
violent reprisals on mainland Pakistan. It could--you say it 
would lead to an influx of more Afghan refugees, with further 
destabilizing effects in North West Frontier provinces, in 
Balochistan. And, finally, you say it could erode the present 
fragile political consensus in Pakistan to fight the militancy. 
And I will comment on that. I was there, in Pakistan, meeting 
with the Prime Minister, when one of the efforts in the 
territories went awry, and I felt and saw firsthand the level 
of intensity of the hue and cry and backlash that came as a 
result of it. And it was a good lesson to learn.
    So, I return to both Mr. Coll and Mr. Bearden, based on 
your experiences. Can you respond to the committee, based on 
your experiences and judgment--Mr. Bearden starting with you--
What is your reaction to those five propositions about what 
happens if additional troops go in?
    And is there a legitimacy to what I said, that you might 
have additional troops, but, if they're tasked in some 
different way, might that mitigate, or indeed even eliminate, 
some of the things that the Ambassador has suggested?
    Mr. Bearden. I would agree with that, Senator. I would 
suggest that, if a surge involved more kinetic operations 
against what we call the Taliban, it would simply foster a 
symmetry in violence from the other side. There will always be 
enough Pashtuns to meet our troops on the field. And one must 
understand, fundamentally, that, at the end of any foreign 
adventure or occupation of Afghanistan, it is a battle with the 
Pashtun people.
    During the Soviet period, I was repeatedly asked, by this 
and other committees, how many mujahideen are fighting against 
the Soviets. I said, ``I don't know.'' I said, ``I think I'll 
give you a number that was around 250,000 full- or part-time 
mujahideen,'' which was perfectly adequate to tie up 120,000 
Soviets. The Soviets settled at about 120,000 troops, because 
any surge above about 150,000 within 30 days would have 
probably snapped their supply chain. They couldn't support more 
than about 150,000 at any given time. And the U.S.S.R. was 
contiguous with Afghanistan. Dr. Lodhi has pointed out, 
certainly, the supply-line problem. We land our supplies in 
Karachi, they move to Quetta or Torkham at the Khyber Pass, and 
if we were to surge our troops, absolutely our supply lines 
becomes part of the rear-area battle.
    Now, your question, Senator, on whether or not we could 
move in 40,000 troops, or up to 40,000 troops, with another 
mission, to do the inkspot strategy to start providing security 
so that the Afghans themselves could start reclaiming a 
district at a time, or a city at a time, that might work, but 
it will be a very, very serious challenge, because the other 
side has the edge on the United States on the information war. 
And any additional troops we put in will be characterized by 
the other side as a kinetic surge. So, we'll have to deal with 
that in strategic communications and in other ways, by showing 
what we're doing on the ground.
    In my opinion, there is no possibility for the United 
States to provide enough troops in Afghanistan to ``pacify'' 
the situation; quotes on the word ``pacify.'' GEN Dan McNeill, 
as he left ISAF, was quoted by Der Spiegel--and I understand 
there was discussion of this, the accuracy of the quote----
    The Chairman. It's an important quote, yet again.
    Mr. Bearden [continuing]. On--that it would take 400,000-
500,000 troops to pacify Afghanistan. In researching of my book 
on the Soviet War in Afghanistan, I went to Moscow and spoke 
with what were my opposite numbers in the KGB and the Soviet 
Army at the time, and their conclusion was that it would have 
taken half a million troops to accomplish what they set out to 
accomplish. I think you'll find most of our colleagues in the 
Pentagon if discussing this frankly would think a half million 
would be about right. That's an impossibility without a draft, 
and it's an impossibility in any case.
    So, what I'm saying is, a kinetic surge makes no sense. It 
will fail. If you want to raise the number of the troops that 
you have now to try to accomplish something else, to provide 
security and perhaps justice to the Afghan people, and let them 
begin to develop their own solutions, it might work.
    The Chairman. Now, do you need to add to that, Mr. Coll, or 
do you agree with that?
    Mr. Coll. I broadly agree with it. I mean, I would just say 
that it certainly does depend on what the troops do and what 
vision of deployment and balance between----
    The Chairman. Well, let's talk about what they might do----
    Mr. Coll. Yes.
    The Chairman [continuing]. In a moment here. But, I want to 
come back to, sort of, some of the underlying concepts here. 
You talked earlier about the 100,000 Soviet troops and their 
inability to be able to accomplish the goal. And you've just 
added on, sort of, these postmortem assumptions they made. Is 
there a distinction in--and, Ambassador, you might want to add 
in--is there a distinction between the United States presence 
and our purposes there, and what we've gone in to do and 
achieve, and the perception of the people of Afghanistan about 
that, versus the Soviets, who just crushed in and decided, 
``You know, we're going to take over'' and exert their will? 
Isn't there--I mean, are we granted more latitude in our 
capacity here?
    Mr. Bearden. I think, indeed, we are. There is an 
underlying sense of--I mean, we are not Russians. The founder 
of modern Afghanistan, Abdur Rahman Khan, on his deathbed, 
turned to his son and said, ``My spirit will remain in 
Afghanistan, even though my soul will go to Allah. My last 
words to you, my son and heir, are: `Never trust the Russians.' 
'' This is part of the Afghan DNA, if there is an Afghan DNA. 
And, indeed, we have not reached that point of parity with 
Soviet occupation forces.
    But what I would suggest, though, that there is possibly, 
to use the overused phrase, a ``tipping point,'' that if you 
raise ISAF and United States troops to a point--the Afghans 
might come to view us as just another occupation and respond 
accordingly. Most of the people we're fighting might not have 
even been born when we were assisting the Afghan people resist 
the Soviets. So, yes, we're not the Russians, but, that's a 
distinction that I would not count on indefinitely.
    The Chairman. And in your judgment, what would be the 
effect if the Taliban were, in fact, to take over? I mean, you 
have Pakistan, that existed for many years; you were working 
with them during that period of time, and the Taliban were 
there.
    Mr. Bearden. Well, the Taliban--well, no, the Taliban 
didn't exist until----
    The Chairman. Excuse me, the Taliban came in afterward, 
that's right. They came in----
    Mr. Bearden. They came in the early 1990s.
    The Chairman [continuing]. After that first period.
    Mr. Bearden. But, I think your question implies----
    The Chairman. Let me finish the question.
    Mr. Bearden. Yes.
    The Chairman. Describe for us, in your judgment, sort of--
and there are--you know, we hear differences about 20 percent 
of the Taliban are Mullah Omar Taliban, and other Taliban are 
rentable Taliban, and some are--you know, you get through this 
sequencing. Can you help us--and maybe Madam Ambassador--get a 
sense of that? And what would Pakistan's attitude be today? 
Because, I understand the--you've described it--the Pakistanis 
are very concerned about the Indian presence there. Some have 
asserted they might be happier with the Taliban presence than 
an Indian presence.
    Mr. Bearden. Oh, of course they would, yes, Senator. The--
--
    The Chairman. You say ``Of course they would.''
    Mr. Bearden. I think that the Indian presence is something 
that all of the Pakistani military and intelligence people find 
impossible to reconcile. They see Indian construction companies 
working as subcontractors on U.S. aid-financed projects, they 
see that it is the largest single donor, after the United 
States. And they fought three very real wars with India, and 
they've almost gone to a fourth on a number of occasions. So, 
that is not hysteria, that's a reality of the region.
    Now, we all looked upon the Taliban, when they ended the 
civil war in the mid-1990s, as, ``Well, maybe this will work 
out.''
    I think our problem, here in America, is that we tend to 
think the Taliban all came from some secret valley, way in the 
middle of Afghanistan, rather than the fact that they're almost 
all the number-3 or -4 son in a Pashtun family, where you look 
up and you say, ``Well, number 1 gets this, number 2 does that, 
but number 3, what do we do with him?'' Well, maybe we send him 
down there to the madrassa, they'll feed him. Every family has 
one son like that, but the only thing is they're in charge now.
    But what is it? The Taliban. It's a handful of people who 
are deeply committed. It is a larger number of punks with guns. 
It's criminal gangs. It's all of the above, but they all come 
from a Pashtun family in that belt straddling Pakistan and 
Afghanistan for the most part. It's like cognac and brandy. All 
cognac is brandy but not all brandy is cognac.
    All Taliban are Pashtun but not all Pashtun are Taliban. I 
think we're going to have to start understanding who they are 
and deal with them and, indeed, understand that where they fit 
into the Pakistani view of its rear area both on the positive 
side and on the negative side. Many Pakistanis would fear that 
the question of Pashtunistan could raise its head again, 
depending on what America does in Afghanistan.
    Pashtunistan is the concept of all of the Pashtun peoples 
in that belt of maybe 40 million people becoming yet another 
country. And most Pakistanis know that Hamid Karzai's father 
was an advocate of Pashtunistan. They also know that Hamid 
Karzai got his Master's degree in India. So, I suggest that the 
distrust just goes on and on and on.
    The Chairman. These things matter. Madam Ambassador, do you 
have a comment before Senator Lugar questions?
    Ambassador Lodhi. Yes, I just want to make clear the fact 
that Pakistan sees its strategic interests vis-a-vis 
Afghanistan as a country that is stable, it's peaceful, and it 
is nonhostile. I think that is the key, plus I think for many 
Pakistanis, Pakistan is of primary importance to them.
    Afghanistan is of secondary importance to them. It is of 
importance, but the primary importance now lies in Pakistan's 
ability to deal with many of its security, economic, social 
challenges that it is negotiating with right now. So that's 
one.
    The other is I can't help but make a very brief comment on 
how the U.S. presence is perceived in the region. I think, you 
know, however well intentioned, however you may have a self-
image of being a force for good, many Pashtuns on both sides of 
the border see the United States as an occupation force, no 
different from the Soviet Union.
    Let us not forget that the Soviet Union had also embarked 
upon a modernization strategy for Afghanistan. They had also 
tried to liberate women. They had tried to introduce secondary 
education; all of that. Now, of course, the brutality practiced 
by the Russian Army has no parallel. There's no question about 
that, but I can speak from my side of the country, sort of 
Pashtun belt.
    I think the problem that we are confronted with in Pakistan 
is that much of the rationale, the legitimacy and the 
mobilizing power of the Pakistani Taliban is coming from the 
sense of sympathy that many tribes have on the Pakistani side 
of the Durand Line with their Afghanistan cousins as it were 
within they share tribal and ethnic linkages, that they are 
resisting an invader, even if the invader came in with very 
good intentions and had every justification for doing what they 
did; of course, 9/11. So we can't discount the sentiment. We 
have to deal with this one way or the other.
    The Chairman. Thank you very much.
    Senator Lugar. We'll just be a little looser on the time 
because there's only a few of us here. I want everybody to have 
a fair extension here. So why don't we make it 10?
    Senator Lugar. Dr. Lodhi's point that the Russians were 
actually promoting the rights of women and secondar education 
during their occupation, albeit, as you say, in a rather brutal 
fashion, is certainly a new insight that I suspect we've not 
heard before in this committee, or at least not as frequently 
as other people thinking about this have.
    I'm impressed, however, even more by the observations about 
the Pashtun. Now as we try to trace our policy, we go back to 
the fact that we were attacked on 9/11 and people say from 
where. Well, the camps in Afghanistan.
    Others would say that the camps were training people, but 
in fact most of the people who attacked us on 9/11 may or may 
not have come out of the camps. This was a part of the 
structure and a part of the international situation, but in any 
event, we asked the Taliban to let us go after the camps.
    In response, the Taliban said no, they're going to protect 
the camps, you can't just come in and take hold. So then we got 
into a conflict with them.
    Now, as I hear all three of you, you're defining different 
kinds of Pashtuns. Some Pashtuns, as you say, are affiliated 
with the madrassas and often become leaders of a more virulent 
group that would possibly protect al-Qaeda, while there are 
others who may be less inclined to do so. From our standpoint, 
however, we just took them all on at this point.
    Now, as you all pointed out, the Pashtuns are both in 
Afghanistan and Pakistan. So, there are many Pashtuns that 
exist apart from those protecting the camps for al-Qaeda. 
Nevertheless the justification for the so-called just war was 
to overthrow the Taliban, which was in effect made up of 
Pashtuns who were harboring
al-Qaeda.
    Subsequently, we've developed other ideas for Afghanistan, 
such as the promotion of women's rights and encouraging parents 
to put their children in schools, and now we have helped 
Afghanistan hold a second countrywide election supervised by 
all sorts of checks and balances, rules, and commissions that 
we feel are important in different contexts whether it's Latin 
America, as we went through the 1980s, or other parts of the 
world, Ukraine more recently.
    Now, I'm just sort of tracing what I see to be a potential 
outcome of all of this where we could as a country, as you've 
all suggested, try to find someone to talk to in the Pashtun 
community who is prepared to make peace not only with us but, 
more importantly, with the rest of their countrymen. Such an 
arrangement may induce the Pashtuns to help offer a defense 
against a minority of intruders to the cities that right now 
cause us to assume a more defensive position in Afghanistan, as 
some of you have described it.
    We're not involved in a surge against people, pinning them 
all down, but we are trying to provide some training to police 
and to members of the army. At the same time as we're trying to 
possibly include in the police and the army some of the Pashtun 
we're talking about here, who have been a party to all of the 
business on both sides of the Durand Line. That may or may not 
work, but as I listen to all of you, it appears that this may 
be a promising way to bring about some stability that we should 
begin looking at.
    Now, finally, our ability to leave depends upon, I suppose, 
the civility of that arrangement and it's interesting because 
you mentioned and we mentioned in our opening statements, our 
Kerry-Lugar business now. The thing that impresses me the most 
as I read the clips from the Pakistan press each day and 
they've been writing about this consistently for 6 months, is 
that many Pakistanis believe that the impressive thing about 
the bill is not really the money but that this bill offers 
assistance over a period of 5 years, the numer 5, as opposed to 
a 1- or 2-year timeframe.
    Five years is a long-term commitment by the United States 
to Pakistan. Recently, the press has speculated that this bill 
might get signed, which has led some to say that the bill is a 
terrible idea due to what they perceive as all kinds of 
conditions, all sorts of intrusions. They're not sure they want 
all of those Americans there for 5 years, but most people still 
like the idea.
    In Afghanistan, it's not so clear really what the 
commitment may be. There's not a comparable five on the 
scoreboard over there and even if there was, some would say we 
don't find President Karzai very reliable. We think there are 
some real problems regarding his family, the warlords that he 
deals with, and the way the election was held. How can you have 
a stable Afghanistan with a government that is unreliable, 
unsubstantial, and not up to our standards?
    So I'm going to ask all three of you to comment about, 
first of all, how do we deal with President Karzai? Also, how 
do we get these talks going with the Pashtun on both sides of 
the border, who may be helpful with successful negotiations 
with the leadership of the country or could help with the 
creation of a more reliable defensive posture around cities so 
that life might go on for people without interminable battles. 
Even if the Pashtun could not completely secure the areas 
around the cities, could their presence at least lead to a 
situation where Afghans would be fighting, most of them in the 
context of police action against intruders in normal life?
    Would the effect of that policy be salutary with regard to 
Pakistan? Should we, as Mr. Bearden said, be considering what 
the Chinese are currently thinking about this?
    We've heard about the Indians. What do the Russians think? 
Who are the other players? Are there people we're leaving out 
of this proposition who might have reasons to try to 
destabilize?
    Would you start, Dr. Lodhi, with your thoughts about this?
    Ambassador Lodhi. I think, Senator Lugar, you're absolutely 
right. General McChrystal also mentions the crisis of 
confidence amongst the Afghan people in the government. So I 
think the whole debate is focused on this again.
    I just want to reinforce a point I made earlier in the 
context of your question which is that the debate right now is 
what kind of military strategy: more troops, less troops, what 
are these troops doing in Afghanistan? The real debate should 
be what is the political strategy because counterinsurgency 
cannot succeed at any time, unless it has a legitimate 
political foundation on which it proceeds.
    There is no insurgency that I can think of that has been 
neutralized by military means alone. Insurgencies have to be 
neutralized by a combination of political and military means. 
So I think that's a question that has to be addressed by 
yourselves and, of course, the U.S. administration.
    It comes back to the point that we have to define and 
clarify the political strategy. Now, when you say how do we 
proceed with talks and with whom, I think this is a very, very 
difficult question and you're right to ask it, but I would 
venture to suggest that this could be done in three ways.
    One, at the local level but something would have to be 
offered the insurgents because I think so far, the efforts that 
have been made from time to time, and these have been very 
local efforts, have not survived for very long, fail largely 
because not much was offered to them. So why should the other 
side surrender as it were unilaterally? So what is it that's 
been offered?
    The second is I think initially talks would also have to be 
opened through intermediaries, not just with the United States 
to decide who it wishes to use as an intermediary from within 
Afghanistan and from outside of Afghanistan.
    Third, I think it's important to initiate an Afghan 
political process as quickly as possible aimed at national 
reconciliation along these lines as part of this political 
strategy. I think the longer we delay that, the harder it will 
become to bring in and draw in so many of the Pashtuns that may 
not be supporters of the Taliban.
    Let us make clear the fact that the two are not 
interchangeable. There are Pashtuns, as you rightly said, Mr. 
Bearden, and then there are the Taliban, but we do have a 
situation and I'll finish on this point because I think it 
makes the point about a military surge more effectively than 
I've done so far.
    The question we have to ask ourselves is what did previous 
military surges do in Afghanistan? Did they lead to an 
improvement in the situation or did they lead to deterioration 
in the situation?
    I think that question is very well answered by the fact 
that independent estimates of the control of Afghanistan 
suggest that the Taliban now have a permanent presence in over 
70 percent of Afghanistan. Two years ago they had it in 60 
percent of Afghanistan and maybe 4 years ago, they had it in 
whatever it was, 30 or 40 percent.
    So what is it? That's simply enhancing troops is not able 
to do it and I think the answer is provided by the lack of a 
political--credible political strategy being worked by the 
legitimate political actors and having the support of those who 
can help in this process.
    Thank you.
    Senator Lugar. My time is up, but I will take the liberty 
of just asking you, Mr. Bearden and Mr. Coll, for at least a 
few comments.
    Mr. Bearden. On the question of the election and the 
current political situation in Afghanistan, some things are too 
hard to do all at the same time. Many Afghans, particularly the 
Pashtuns, will look at the government as completely corrupt, as 
you pointed out. Others will claim that U.S. forces are in the 
country to support and shore up a government that is 
essentially Northern alliance, Tajik Panjshiri-run. They don't 
consider Hamid Karzai a genuine Pashtun. They consider him a 
creature of the Tajik Panjshiri people that came into power 
with American support 8 years ago.
    I think Dr. Lodhi is right. We're going to have to come up 
with a strategy for engaging these people. At the same time, if 
we do not put resources into development projects that will 
provide a possible stake for these people, then we'll get 
nowhere. There aren't many options right now for the teenage 
Pashtuns. Pashtun boys go from childhood to manhood. They don't 
do the adolescent thing that we do with iPods and that kind of 
stuff. They just go from a child to a young man with a 
Kalashnikov. If we don't offer some projects that will give 
them a stake in something, whether it's a road or an 
agricultural project or something, where they can get $9 a day 
instead of $8 a day, then we will continue to fail, as well.
    The political side, let's get beyond this. A runoff. The 
snows are almost ready to start filling the high mountain 
passes. We want another 4 months of this? Just get on with it. 
Take a deep breath and move forward. I think President Karzai 
would understand that he's got a new chance now, if he's got 50 
percent plus one vote, to become a statesman or to end up on 
the ash heap of Afghan history.
    So I don't think we have the wherewithal to control that, 
but we have to start doing some things differently inside the 
Pashtun belt of Afghanistan.
    Senator Lugar. Mr. Coll.
    Mr. Coll. Just very briefly, maybe just to sketch a little 
bit of the complexity of this subject.
    The Pashtuns, of course, there are more Pashtuns living in 
Pakistan than in Afghanistan. There are, I think, about 10 to 
15 percent of the Pakistani Officer Corps are Pashtuns. They're 
a very diverse people. They're also internationalized to a 
degree that I think is underappreciated in our discourse about 
them.
    The Pashtuns in Dubai and Abu Dubai are working on 
construction sites. There are Pashtuns by the hundreds of 
thousands at least in Karachi driving trucks. This is a 
transnational talented people that also lives along the border 
and in southern Afghanistan in considerable poverty and 
deprivation, but it's a very complex subject.
    The Taliban are a minority extreme movement within a 
broadly based and internationalized people. So I don't think we 
should reduce them in our eyesight but understand that because 
of their complexity, there are opportunities to build political 
coalitions that are sustainable, frankly, just as the 
Government of Pakistan has done throughout its existence.
    And then on the political strategy subject, in Kabul, there 
are lots of opportunities, I think, to engage the Afghan 
political elite in their own processes of political reform and 
unification.
    The Bonn Process selected the Afghan Constitution of 1964 
for the absence of anything better. It was sort of ratified in 
a hurried process in the early years after 2003. It's left the 
country with a debate among Afghans about what would be the 
best political system to address their pluralism and their 
development and whether or not the Parliament should have a 
greater role, whether or not Governors should be elected, 
whether or not political parties should be allowed to flourish.
    As Ambassador Lodhi suggested, and I agree, Afghans are 
ready to have such a discourse, whether it's in the form of a 
Loya Jirga or some other kind of political process and it needs 
to address not only these broad questions of governance and 
political power-sharing but also electoral reforms to prevent 
fraud, such as occurred this time, from ever occurring and 
other kinds of compacts that can stabilize the center.
    This is part of what a political strategy means. 
Concentrating American and international effort on the creation 
and sustenance of such dialogue rather than distracting 
ourselves entirely by discourse about military tactics and, 
finally, there's the national reconciliation and reintegration 
piece.
    Not to reiterate too much of the Soviet era history, but, 
you know, after the Soviets left, they left behind a client 
government headed by Dr. Najibullah. He was the modernizer, an 
Afghan strongman, who actually held on and controlled 
Afghanistan cities until after the Soviet Union dissolved.
    You could even argue that the Soviets in some technical 
sense, that while they were defeated strategically in 
Afghanistan, they never lost control of the Afghan state. The 
Afghan state headed by Dr. Najibullah only collapsed after the 
Soviet Union itself dissolved and during that period when he 
held the cities against mujahideen assault after assault after 
assault. There were tens of thousands of women at work in 
ministries and girls in schools and high schools, but the 
reason he succeeded was that he, besides being a secret police 
chief and a tough man and a sort of rather strong leader, not 
someone that you would admire as a political figure, but he was 
very successful at a national reintegration strategy. He held 
the cities, used the footprint of the cities and then reached 
out and picked off tribe after tribe.
    He converted his enemies into stable sources of not 
necessarily his marching alliance, but he was able to settle 
things down again and again by pursuing a national 
reintegration strategy. If he was able to do that, despite 
being discredited and despite having no resources, if the 
international community pursued such a reintegration strategy 
funded and adopting the best practices that have been developed 
elsewhere in the world to bring young men in, give them 
stipends, give them jobs, give them a future, this is part of 
the political strategy that requires greater emphasis. It's 
rarely discussed as part of the policy package.
    Instead, we tend to always be asking what international 
troops will be doing.
    Senator Lugar. I thank you all for discussing it this 
morning. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. I'm going to be 
very brief.
    First of all, I want to apologize to the witnesses. I was 
in and out this morning and have to run in about half my time. 
So I'll try to just be 5 minutes.
    First of all, I want to thank you for your testimony. One 
of the major challenges we have in the Congress, forget the 
administration for a second, is to get this strategy right and 
make sure we make determinations about--after a lot of analysis 
and review--make determinations about what's the right strategy 
before we have a full-blown debate on what the resources should 
be. So you're helping us do that.
    I might have time for just one question, but I wanted to 
see if all three of you could comment--and I know it's hard to 
do in a minute or two--but could you comment on the 
relationship between or among, if any, Quetta Shura, the Quetta 
Shura Taliban, the Haqqani Network and al-Qaeda. Mr. Bearden, 
we could start with you and what your sense of these 
relationships. A lot of the debate on this policy will center 
on the nature of the threat within the region or within and 
between the two countries, but also the nature of the threat as 
it relates to our national security interests.
    Mr. Bearden. I think that the suggestion that the al-Qaeda 
Arabs can control the Taliban Pashtun or any other Pashtun 
insurgents is a bit overdrawn.
    Many of these people, including the father, the granddad of 
the Haqqani Network, Jalaluddin Haqqani, we knew well as a 
fierce anti-Soviet commander during the time and he, indeed, 
got along with Arabs as many of them did, but they always felt 
that after the Soviets, the Arabs were a significant irritant, 
as well.
    I'm not certain that we would ever see al-Qaeda come back 
under any condition and take the control that we at least 
attributed to it at the time of 9/11.
    Now the Quetta Shura, there's a debate. The Quetta Shura 
probably exists. Yes, it exists to some extent, but it's like 
discussing somehow our belief that Osama bin Laden and Ayman 
al-Zawahiri are in Pakistan. Nobody's seen them for 8 years.
    We've repeated that claim to the point where we accept it 
as true, but bin Laden could be in Yemen or Aruba or here in 
Washington. I have no idea where bin Laden is and I don't think 
anybody else in the government does. If they did, they would 
just go get him.
    But we have been locked into repetitive statements that 
have become doctrine that don't get challenged anymore. I'm not 
too sure that the language we have now for al-Qaeda, disrupt, 
dismantle, et. cetera is even valid today.
    I think someone could stand up and say that's already 
happened. What has not happened is we've not had national 
closure with bin Laden and that is what we're seeking.
    The Afghans aren't controlled by anybody. They've never 
been controlled by Pakistan, as is often suggested. Even 
General Babar, who was Benezir Bhutto's adviser, said they're 
``my boys.'' Well, they're not anyone's boys. I used to work 
with an ISI general and would go to them and ask ``are we going 
to be able to get the Afghans to do X and Y?'' And he'd be 
thoughtful for a moment and say, ``You know I can usually get 
the Afghans to do something they really want to do.'' That's 
what happens in Afghanistan.
    So I think that's a reality we're going to have to bear in 
mind as we move forward. Who controls what and whether Quetta 
Shura is important or not, I don't know.
    Senator Casey. Thank you, Doctor. I know we have limited 
time.
    Ambassador Lodhi. Very quickly. I think I would agree with 
Milt that there's just so much speculation around this whole 
notion of Quetta Shura and I think if the wrong facts and 
evidence, real-time intelligence, and it is pinpointed where 
these people supposedly are, I have absolute confidence 
Pakistan will respond.
    But having said that, one point that I do want to bring to 
your attention is the fact that Quetta has a refugee camp, one 
of many that still exists in the country, which are larger than 
many cities in Europe, and these refugee camps are really--
provide a haven for many who come back and forth from 
Afghanistan and I think one of the points my country has made 
for the last 8 years, if not more, has been to shift these 
refugee camps across the border into Afghanistan. Then you can 
deal with them and you can deal with whoever's hiding out in 
these camps, but it becomes very hard for Pakistan which is 
constantly being berated for not doing enough, for hedging, and 
for all sorts of other allegations that are made certainly in 
the media and yet when Pakistan says, look, we have a problem 
with these camps, there's something going on.
    We can't monitor all the people who come in and out of 
these camps; if we tried to do that, if we tried, for example, 
to do a shalita in one of the camps in Quetta, you can imagine 
what the outcry would be in Pakistan, much less the 
international community.
    So somehow these factors don't get play in your country and 
really do need to.
    Mr. Coll. To quickly answer your question, I think the 
Haqqani Network has a close historical collaborative 
relationship with
al-Qaeda. The first al-Qaeda training camps were established in 
territory that Jalaluddin had controlled and if, indeed, bin 
Laden and al-Qaeda leaders came back across the border right 
after Tora Bora, they would come into North Waziristan 
territory that are Haqqani-controlled and there's lots of other 
evidence of these networks.
    That's the most likely closest collaborative relationship. 
The Quetta Shura, meaning Mullah Omar and his gang, have had a 
longer and more ambivalent relationship with al-Qaeda and I 
think that it persists today. I don't see evidence in the 
reporting that Mullah Omar's group sees the same kind of 
collaborative benefit in the relationship with al-Qaeda, though 
they certainly communicate and, to some extent, share goals.
    Senator Casey. Thank you very much.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. I appreciate the 
testimony of all of you, and I appreciate the chairman and 
ranking member calling this hearing today, and I think the 
context you provide is very, very helpful.
    I do hope at some point in the near future--I know 
Secretary Gates has certainly agreed to this--it will actually 
have Eikenberry and McChrystal and Anne Patterson in to do the 
same kind of thing, but the context he provided us is most 
helpful.
    To me, where we end up in all of this is sort of a circular 
discussion. You know, the President, back in March, February, 
or March, talked about a narrowed mission to focus on 
counterterrorism. And everybody said it's a narrowed mission.
    I immediately said that that meant nation-building, 
because, in fact, in a country like Afghanistan with poor 
people and not much of a government, in order to win the hearts 
and minds of citizens to have the counterinsurgency side, it 
ends up being nation-building. Lo and behold, people are now 
realizing with the metrics that have just been laid out a 
couple weeks ago, in fact, what we're engaged in right now in 
Afghanistan is nation-building.
    So I hear the--and by the way, I'm one of the few folks on 
my side of the aisle that think it's appropriate that the 
President takes some time right now to think this through. I 
think a prolonged length of time is very damaging. I hope we'll 
come to some conclusions soon.
    But I also am a little concerned. I hope that Pakistan 
doesn't become a diversion. I think Pakistan's very important, 
but I hope we don't come up with something that's sort of a 
halfway approach, sort of a Solomon's baby, something that is 
cute. And I'm afraid that we possibly are moving down that 
path.
    So with that context, I'm confused. Mr. Bearden, I hear 
about the young men and women there who don't do the things 
that our young men and women do to stay busy. It does seem to 
me that regardless of whatever political reconciliation we 
might incur, that there's going to be a large degree of nation-
building that has to take place for there to be a political 
settlement. I would like for you all to respond to that 
briefly, if you would.
    Ambassador Lodhi. I think the question that you have to ask 
yourself, really, the United States needs to ask itself, is 
whether nation-building can ever be undertaken by those who are 
foreigners to that land, because that produces its own 
dynamics.
    I think the mission to transform other countries' societies 
are best left to the people of that country. I think they can 
be helped, of course, and the United States should, in my 
opinion, enhance its economic footprint in both Afghanistan and 
Pakistan, but that's a different way of helping a country build 
itself.
    But I do think, from my long years of experience, I just 
find the whole notion of nation-building by an outside force as 
really well intentioned, but misconstrued, misperceived, and 
therefore, resisted by large sections of that country's society 
who feel that their way of life, and, in this case, the Islamic 
way of life, is somehow being changed according to somebody 
else's political agenda.
    So I would just caution you on that, but not for a moment 
say that there should not be a development surge, that 
infrastructure help should not be given to Afghanistan and 
indeed Pakistan. That's a different thing. But nation-building 
has a completely different connotation.
    Mr. Bearden. To take you back and give you a little 
context, the nation-building discussion underway today is, in 
fact, a delayed discussion from 1989. The end of the war for 
the Afghan people, when the Soviets left on February 15, 1989, 
had produced a million dead, probably 1\1/2\ million injured in 
the war, and 6 million driven into internal and external exile, 
3 million of which were in Pakistan, next door.
    To be fair, a civil war broke out rapidly thereafter, and 
you don't fight your way in with aid. But then during the 
1990s, we simply walked away. Now we're going to have to do 
something, I think, in the way of infrastructural development 
and other attempts that will provide the Afghans a stake in 
something other than the only industry they've had for the last 
three decades, which is warfare.
    I agree with Dr. Lodhi, to the extent that we can make a 
large number of mistakes, if we go in and try to rebuild the 
nation and we make it look like Oklahoma or something like 
that. But I do suggest that we have a responsibility, and it is 
in our vital interests to do something in the way of what 
you're calling nation-building, but it should be very, very 
thoughtful and unique to the circumstances.
    Senator Corker. Mr. Coll.
    Mr. Coll. I would just add that I think the good news is 
the kind of nation-building that Dr. Lodhi's correctly anxious 
about is not required in the medium run for the United States 
to achieve its broader goals of regional stability and 
prosperity. The real context, in my view, for this policy 
dilemma the United States faces resides in competing visions in 
South Asia itself between a path toward modernization, economic 
integration, normalization of relations between India and 
Pakistan, and a proud march toward the Asian Century 
constructed by Pakistanis, Indians, Afghans.
    The role of the United States is not to create and build 
that future, but to enable it by ensuring that the sources of 
instability, particularly the Taliban and al-Qaeda, do not 
create conditions that delay or retard that effort. It's 
already underway.
    And so in Afghanistan, stability and the prevention of a 
regionally destabilizing, disruptive war is an American 
mission. We took it on after 9/11. We have our own interest 
there. But the kind of nation-building that is ultimately going 
to pull Afghans into a stable and prosperous future is going to 
be constructed by Indians and Pakistanis themselves, in which 
Afghans and other central Asians and the whole region will 
eventually participate, if the failure of these fragile states 
doesn't get in the way.
    Senator Corker. So let me move on, and then I'm going to 
come back to that in just a second. But, Dr. Lodhi, when you 
talk about the grievances that plague the Muslim world, that's 
obviously a sort of mid-to-longer-term issue, but could you be 
specific about two or three of those that would come to your--
--
    Ambassador Lodhi. Well, I think if you asked any Muslim 
anywhere in the world what moves him or her, I mean, I can't 
speak for everybody, but I think the first answer would be 
Palestine and the need for a just settlement and the need for 
the United States to put the kind of political resources to 
ensure that the process doesn't trump an outcome, because we've 
seen in the past that process becomes something which is an end 
in itself.
    So the issues that plague and play on Muslim hearts and 
minds are very clear. In my part of the world, it's Kashmir. I 
mean, the ``K'' word, I'm told, is not even mentioned in 
Washington anymore. Why not?
    I think the single most important way in which the United 
States could demonstrate that it stands by justice is to play a 
role in helping to bring about a Kashmir solution. It doesn't 
have to get involved by mediating, but I can tell you that will 
have a much greater impact on Muslim hearts and minds, 
certainly from the country that I come from and its 
neighborhood than probably any other issue.
    So I think the issues are very clear. It's Palestine, it's 
Kashmir, it's how the whole Iraq issue is ultimately resolved. 
And, of course, it's Afghanistan, where people wish to see 
something other than just military escalation and the 
application of a military solution, because Muslims obviously 
turn around and say, ``Why is it that the West does not adopt 
just positions when it comes to us?'' Now, what a just position 
actually amounts to is something that we can discuss in more 
detail later, but they're very concrete issues.
    These are the conflicts that are going on, and they need 
resolutions, and they're the ones that provide the oxygen that 
many terrorist groups use. These are legitimate grievances that 
are leveraged and used, so we must take the oxygen away from 
these people. And I think that's being smart about how to deal 
with this. You're not at all conceding to them. You're being 
smart about how you're dealing with all of these issues.
    Senator Corker. Thank you. And, of course, those are the 
same issues we have heard for decades, and I appreciate your 
bringing them up. So let me get back into the issue at hand. 
The President announced in February or March what his strategy 
was. Obviously, there has been a gearing up toward an American-
type nation-building. That's been what's been geared up too.
    So now we have a commander on the ground there that was 
told to put in place whatever it took to make that happen. He's 
requested 40,000 troops. Many of the things that you have 
talked about are nice to talk about--no offense--in this warm 
room with all of us here, but there are actual kinetic 
activities that are taking place right now in Afghanistan, and 
there's a conflict underway. There's an unsettled Presidential 
election there that has many flaws.
    So with this great context and background that you all 
have, give me one, two, three steps that, if you were 
President, the tangible steps you would take beginning 30 days 
from now as it relates to Afghanistan.
    Mr. Bearden. On the nation-building side, first----
    Senator Corker. You don't have to get derailed on that, but 
just----
    Mr. Bearden. I'm not. I think there's an important point I 
would make is that we're not talking about a U.S.-driven 
Marshall Plan. There's huge money in the region and huge 
interest in Afghan national resources. What I'm saying is that 
America is bogged down in a war, while Chinese are buying 
copper mines and looking at the huge iron ore deposits in 
Hajigak to the west of Kabul, the Russians are looking at the 
hydrocarbons across the North, and the Iranians that we don't 
seem to ever want to mention have--there's 24-hour-a-day power 
in Herat in western Afghanistan, because the Irans want it to 
be there.
    I think that if we were able to marshal some of those 
regional forces, and there would be a huge amount of 
developmental benefit, let's say, from some of their 
development of natural resource operations, constructions, 
creation of ports, movement of national resources out, and 
large employment of Afghans, with precious little American 
input, other than guidance, because we're supposed to be in 
charge there.
    Senator Corker. I was just in Iraq, and I agree, there's a 
lot of positive activity there. But back to the question--OK. 
We have a request in front of us for 40,000 troops. And so the 
answer is: yes?, no?
    Mr. Bearden. The answer on that one, Senator, would be that 
there will not be a military solution. If you wrap up 40,000 
troops, don't even think that you're going to bring anything 
under control. That number will be matched by those who oppose 
the troops.
    But if you're going to try something else with those troops 
to create pockets of stability, I could go along with that, but 
I'm not a big fan of any kind of surge. You cannot have a 
kinetic surge and expect to win.
    Senator Corker. Of course, my understanding is with those 
troops that the purpose is to protect the major population 
area, so I'm confused by your response.
    Mr. Bearden. Well, we don't know yet. I'm saying that if 
you're surging, if it's a surge, it will be interpreted as a 
kinetic surge by those who oppose us right now. I'm not too 
sure what happens once 40,000 more troops get on the ground. 
Forty thousand troops will beget forty thousand more enemy, and 
you will end up in more dust-ups, I think.
    Senator Corker. OK.
    Dr. Lodhi.
    Ambassador Lodhi. I think the question of how much is ever 
enough is going to put you on a slippery slope. When will 
enough ever be enough? Because I think without a political 
strategy, you're putting the cart before the horse.
    A military surge without being clear how politically you 
are going to proceed in the backdrop of a fraud-stricken 
Presidential election, where General McChrystal says the Afghan 
people have lost confidence in their government--and he said 
this prior to the Presidential election--I think is inviting 
trouble, in my opinion.
    You will multiply the number of enemies that you have in 
Afghanistan. You will set yourself as greater targets. Because 
there are that many more people, there will be that many more 
targets. Casualties will go up, and the consequences for my 
country, Pakistan, will be hugely destabilizing.
    Senator Corker. So I think that's an interesting answer, 
and I realize we've all talked about the Pashtuns and trying to 
bring them at the same time. The Taliban has got 30 percent of 
the country under its control today, and I would say that's 
gaining, and you all are saying plus or minus. But let me just 
ask you this. American sensibilities, how will we respond to a 
country that has large amounts of its territory under Taliban 
control, and are you thinking that through this political 
strategy, that we leave those territories as are, or are you 
thinking over time, that the saner-thinking Pashtuns pushed 
them out? I mean, what are you thinking in that regard?
    Ambassador Lodhi. Well, I'm asking the question whether, by 
what you're saying, the objective of the United States then 
becomes the avoidance of defeat. Is that the goal that the 
United States has in Afghanistan, or is the goal to disrupt 
defeat and dismantle
al-Qaeda and protect the American homeland from terrorist 
attack?
    I understand that as your core goal. If that is the core 
goal, I think the question you have to ask yourself is whether 
proceeding along the track of enhancing troop levels in 
Afghanistan takes you nearer that goal, or does it take you 
away from that goal? Does a policy of military escalation leave 
the region with stability, or does it leave the region with 
greater instability?
    I think the goal is yours. We have pointed out--at least I 
have, and so have my colleagues--some of the risks and the 
costs. Now, I think in determining strategic goals, you have to 
factor in these costs. There will be costs, and I think 
assuming that somehow troops are going there to protect the 
civilian population assumes that your opponent or the enemy or 
the insurgent is going to accept that. The insurgent will 
engage these increased combat troops in Afghanistan in 
intensified fighting. What will your troops do? Respond. 
Military escalation will follow.
    So I think the sequence of events, regardless of the 
original intentions, will lead to intensified fighting, and I 
think the question then to ask is does that help take you 
closer to your goal, or does it take you away from your goal?
    Mr. Bearden. The Senator raises a very interesting 
prospect. What would happen in some of those areas where the 
Taliban are in control? An experiment might be just let happen 
what will happen, and then turn the lights back on in 6 months, 
and you will probably find that a bunch of bearded guys have 
been replaced by a bunch of bearded guys that might be ready to 
sit down and talk about something.
    I'm doing that in response to your statement that we may, 
in fact, have to cede large slots of territory in a new 
strategy, and it might provide some very interesting 
developments in itself.
    Senator Corker. Mr. Coll.
    Mr. Coll. I think I'd like my two fellow panelists--I don't 
per se oppose the dispatch of additional troops to Afghanistan. 
My question is what are the troops for, and how do they connect 
to a successful, plausible, political and regional strategy?
    And I think that there are--to answer your question about 
what could be done in the next 30 days--markers of what a 
successful political and regional strategy might look like. I'm 
not suggesting this has an engineering blueprint, but for a 
flavor of the kinds of things I'm talking about, linking 
population security to a vision of political and regional 
strategy to initiate an Afghan-led process of political and 
constitutional reform that is supported by all of the 
opposition, significant opposition candidates in the election, 
and resourced and supported by the international community to 
initiate within 30 days a program of well-resourced national 
reintegration that has the prospect within 6 months of 
providing an address for those local and regional Taliban 
leaders who want to reengage with the constitutional system in 
Afghanistan to turn up at, and to be rewarded for, their 
decision.
    To think about partnership with the governments in 
Islamabad and New Delhi and Tehran and Moscow and Beijing, to 
reinforce this strategy of stability, security, and political 
emphasis. Now in that context, if the military advice from 
General McChrystal, whose vision may be consistent with what 
I'm describing. He hasn't actually come forward to lay all of 
that out yet. If he said, ``I can get you there, but I need X 
trainers, In order to put Afghan forces in the lead by 2012, I 
need the following bridge period. I need the following training 
vision, and I'm not going to be out knocking on--bringing young 
men from Tennessee and Upstate New York into rural Pashtun 
villages, knocking on doors, asking who's inside, Are you good 
guys or bad guys?''
    That self-defeating pattern of rural patrolling and 
counterinsurgency, I asume, is not his vision, but I'm just not 
clear as to what the additional troops are meant to resource by 
way of that----
    The Chairman. On that note, Senator, I have to interrupt.
    Senator Corker. Let me just close by saying this. I think 
the one thing, Mr. Chairman, that has never occurred, and that 
is an understanding of what success actually means there. And I 
still think, until we lay that out for the country and we lay 
that out for our military and we lay that out for the civilian 
operations, we're going to continue in what I think are very 
circular talks.
    Mr. Coll--just his last, which I appreciate--still leaves 
territories where al-Qaeda ends up potentially being a safe 
haven, so these things end up being sort of circular 
discussions.
    I thank you for the testimony, and I'm sorry to take so 
long.
    The Chairman. Thanks.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I would like to follow up a little bit on the line of 
questioning that Senator Corker started, because I'm still 
trying to understand exactly what this more sustainable 
strategy is between military buildup and total withdrawal. I 
understand some of the points that you've laid out. Dr. Lodhi, 
I understand when you say we need to reach out to the Pashtuns 
and try and bring them in and make some agreements. What I'm 
not clear on is what the incentive is on their part to do that 
if they don't see--if they look down the horizon and see no 
further increase in U.S. troops and what, as you have pointed 
out, has been an increasing presence on the part of the Taliban 
over the years, based on the troop levels and the actions that 
we've taken to date. So, I'm really trying to figure out how we 
do this third-way strategy that you all are talking about, 
because it's still not clear to me. So, I don't know if you--if 
anybody wants to respond to that before I go on to the next 
question.
    Mr. Bearden. I would just have a--one comment is that we 
sometimes presuppose that all the Pashtuns want to do is fight. 
They will always rise to a fight. And there's no question about 
that. They're the--it's--the ``best-friend/worst-enemy'' is 
always the description of the Pashtun tribals. But, they will 
also quiet down if that fight subsides and it is not brought to 
them. And if there are other stakes that are created around 
them that they can have a part of, they may even start making 
deals.
    So, I know the middle way is difficult to describe, but I 
think if you continue a kinetic approach to them, they'll fight 
forever.
    Senator Shaheen. But, I guess, it seems to me that what 
you're describing is what we've been doing for the last 8 
years. I mean, we haven't--until recently, haven't increased 
troops, and we have--I mean, what I've heard and--what I 
heard--I was in Afghanistan in May, and we heard that, ``Well, 
you know, we want to provide economic assistance.'' We've built 
all these schools, but, unfortunately, we build the schools and 
then the girls and the students are interrupted by the Taliban 
from attending, and so, we have to provide security for those 
schools. So, I'm still trying to understand how we do the 
economic assistance, how we provide the resources that you 
talked about, into development projects, at the same time we're 
not increasing troop levels to provide that security. How does 
that happen?
    Mr. Bearden. Well, I think the example you used is the--
that the--you know, is nothing more of a lightning rod than--
that America is going in and building girls' school in Pashtun, 
Afghanistan. I mean, it's a nice thought, but you must 
understand, when you do that, that you're inviting somebody to 
shut it down and then you just raise the prospect that we have 
to build a girls' school and then protect it. I think that 
prevents us from----
    Senator Shaheen. Well, how about a boys' school?
    Mr. Bearden. Little boys don't go to school, either. No, 
but the point is, is that, I think, when we build those 
schools--why start with schools? A well--digging a well might 
be something that has a greater range.
    Senator Shaheen. Heard similar stories about----
    Mr. Bearden. Yes.
    Senator Shaheen [continuing]. Wells. I mean, it wasn't 
limited to--I chose an unfortunate example, because----
    Mr. Bearden. Yes.
    Senator Shaheen. What we heard was that there had been some 
successes--health care was a success that was talked about in 
the villages--but that whenever there was an effort to provide 
some of those resources, it was very difficult to have them 
secured by Afghans without the Taliban coming in and undoing 
the benefits.
    Mr. Bearden. I think most of those, those well-thought-out 
efforts, were considered only incidental by the opposition, by 
the enemies, who viewed us not as nation-builders in any way at 
the time, or not providing them a stake in something, but as an 
occupying force. And if that is what the debate is now in this 
government of what are we going to be in the future, not what 
we have been in the recent past, then maybe they will change 
their attitude, as well.
    I do say, again, they rise to the fight every time, but 
they'll also quiet down if you don't always bring the fight to 
them. But, you know, this is not easy.
    Senator Shaheen. Does anybody else want to comment on that? 
How do we do the things you're suggesting?
    Mr. Coll. Well, Senator, I mean, I would say one thing. You 
mentioned that you--two things. I don't regard our advice as 
just a third way or a middle way. I think it's an attempt to 
try to bring forward an emphasis on political and diplomatic 
strategy. And it may be that General McChrystal and the Obama 
administration have this firmly in mind. That seems to be what 
the President has been saying, ``Let's get the strategy right, 
and then talk about resources behind it.''
    And I certainly, in my own intention--by emphasizing, in 
specific ways, what political reconciliation, reintegration, 
and regional diplomatic strategy looks like, I'm simply trying 
to put that ahead of the resourcing question.
    You said that you've worried that the status quo was, in 
effect, what we've been doing all along. In fact----
    Senator Shaheen. Well, that what you're suggesting is what 
we've been doing all along.
    Mr. Coll. Right. And, in fact, I don't think that either--
that that's the case, that the narrative of U.S. military and 
political policy in Afghanistan since 2001 has been a zigzag 
and has been characterized by grotesque underresourcing of a 
very ambitious mission. The theory of the case early on was, we 
didn't need very many troops, and yet we could transform every 
nook and cranny of Afghanistan. We went in with national 
ambitions that encompassed virtually every rural district, but 
neither the soldiers to provide the security, nor the funds, 
nor the mechanisms to deliver those results.
    It was the overstretched fabric of ambition and the 
resources that created the gathering crisis that now confronts 
the Obama administration. And I think that, in the course of 
that, there have also been attempts to undertake military 
solutions to what are essentially political problems. And even 
as recently as this year, thousands of marines were sent into 
rural Helmand province on a mission whose strategic, sort of, 
purpose I struggle to understand. They kind of went through a--
I mean, you asked a lot of brave men to take enormous risks in 
what is, in my mind, a geographical kind of cul-de-sac that 
didn't produce population security and didn't produce a 
transformational effect on national politics.
    And so, I'm hopeful that when General McChrystal--if he 
appears before--that, when you ask him that same question, that 
he'll have a vision that you'll find convincing. But, what I 
understand from the open sources is that the basic idea is, not 
only to try to put this political and reintegration and 
regional strategy before the military resources, but then to 
deliver those resources against a clear vision of transition to 
Afghan security forces and to Afghan politics, within a time-
bound period.
    And now, it may be--and the Senate has played an important 
role already in raising questions about, Are there alternative 
ways to get from here to 2012, rather than 40,000 American 
troops? But, I think there's a shared vision, as in Iraq, that 
the goal is to put Afghan security forces forward so that 
United States forces can transition from direct combat to 
overwatch to support, and head to the exits as Afghans take 
control of their own security.
    So, I think that big picture, there's a broad understanding 
of. It's a question of, What are the short-term investments by 
the United States, and particularly the hardest question, the 
role of additional troops in achieving that vision?
    Ambassador Lodhi. May I?
    Senator Shaheen. Yes?
    Ambassador Lodhi. I think, two or three points which emerge 
from your question. The first is, you said that were--you know, 
there haven't really been these military buildups, but the last 
few months have seen 21,000 U.S. troops go into Afghanistan--I 
mean, that's a surge, if there ever was one----
    Senator Shaheen. Right.
    Ambassador Lodhi [continuing]. 17,000 of which were combat 
troops.
    Now, the question that has to be asked is, What did that 
produce? So, further military buildups, in my opinion, are 
unlikely to produce an outcome different, unless you have the 
connecting link, what you are looking for, which is a political 
strategy. And I think there, with all the talk about ``smart 
power'' and a development surge and a civilian surge that we 
heard from the Obama administration in March this year, we 
didn't see any of this rolled out on the ground. In fact, what 
was rolled out on the ground was essentially a military 
solution. Now, that may have been unintended, because you 
didn't have the means to do the civilian surge; but if you 
didn't have the means in March, how do you develop the means 
now? So, that part of the strategy, I think, will remain open 
to question.
    And as for the political strategy, you know, I will just 
reinforce--I think there has to be an effort to draw in as many 
Afghan and the excluded Pashtun groups, and peel off as many of 
the Taliban elements as possible in such a process of 
reintegrating them into the Afghan political process. And, I 
think, ultimately the bargain that will have to be offered to 
them, in my opinion--to many of these insurgents that are 
prepared to disallow al-Qaeda, so I have to keep making this 
distinction----
    Senator Shaheen. Sure.
    Ambassador Lodhi [continuing]. And abandon violence--is 
that the United States and NATO forces will ultimately be 
prepared for a progressive reduction of forces over a period of 
time, without reducing its economic commitment and its 
responsibility to the Afghan people, after years of so much 
devastation and destruction.
    So, I think this is the kind of political, sort of, 
solution that I see down the road. I'm not saying it's going to 
happen tomorrow, or should happen tomorrow. But this is 
something that has to be envisaged, because I think to rely on 
the Afghan National Army, much as I'm--absolutely, I agree with 
Steve that this is a very important part of any ultimate exit 
strategy that the Afghans themselves are able to take 
responsibility for their own security. But this doesn't take 
away the most important deficit that the Afghan National Army 
and police still stuff, which is they're ethically skewed in 
favor of non-Pashtun groups. So, you have to ensure that it 
becomes an ethnically balanced security force to start with.
    And if these people are not joining the security forces, 
the Pashtuns, then we have a real problem on our hands, because 
how do we persuade alienated chunks of people, who are so key 
to Afghanistan's future, to be recruited into the Afghan 
National Army.
    Because I think the exit plan ultimately will depend on 
something which, frankly, has not been proceeding--even by 
those who have been doing the training of these forces--
according to plan, as it were.
    Senator Shaheen. My time is up, Mr. President.
    The Chairman. Thank you so much, Senator, we appreciate it.
    Senator Wicker.
    Senator Wicker. Thank you. Very thought-provoking and 
excellent hearing, Mr. Chairman. Sorry I haven't been able to 
be here for all of it and to pay attention to every word.
    I'm interested in the history lesson that Mr. Bearden began 
with, of three decades of action, neglect, and reaction.
    And so let me ask you--all three of you, if I might--just 
trying to understand where the mistakes have been made. April 
14, 1988, the Soviets were gone from Afghanistan.
    And, according to your printed testimony, Mr. Bearden, you 
say America turned its attention elsewhere--I believe in your 
verbal testimony you said we turned our backs on Afghanistan.
    For all three of you--what was the mistake--what should our 
level of involvement have been at that point? What mistake did 
we make?
    Mr. Bearden. Senator, the Soviets left on February 15, 
1989. America didn't just take a break and take a 3-day pass, 
what happened--in May of that year--the Hungarians figured out 
that the Soviet Union was finished, and they cut the barbed 
wire with Austria.
    In June of that year, the Poles elected the electrician 
from Gdansk. All through that summer, the East Germans came 
out, first in tens, then hundreds, then thousands, until the 
Monday demonstrations had hundreds of thousands of people on 
the street, and November 9 the Berlin Wall was breached, and 
329 days later, Germany is reunited inside NATO in what I think 
is one of the most masterful maneuverings of foreign policy in 
this country since George Marshall was Secretary.
    The Soviet Union, on Boxing Day, 1991, slid beneath the 
waves. So, that's what we were doing.
    Meanwhile, back in Afghanistan--in the absence of a foreign 
occupier, and the only time the Soviets looked like a 
superpower was leaving the country--they reverted instantly to 
their unruly ways, and there was a civil war. And we blame 
ourselves, because we did not do anything after that, but we 
couldn't do much. U.S.A. doesn't fight its way in to assist 
people, but then I think in the 1990s we just lost interest, 
and that was a fateful thing for the whole decade.
    Senator Wicker. So, what level of involvement should we 
have had?
    Mr. Bearden. I think what you have to understand--or what I 
understand--is that once the Soviet Union left the scene, and 
we became the sole remaining superpower, we then had a 
responsibility for a new construct internationally--it was the 
failed state. During the whole cold war, states didn't really 
fail, because the Soviet Union would run over and throw some 
money at it, and put it in their team, or we would run over and 
put money on it and it would be on our team.
    But when the Soviet Union retired from the field, we had a 
failed state. And I don't think we took that seriously. At what 
point could we have done something differently? I don't know. 
Perhaps it was the change of the guard, from a Reagan 
administration--who might have been credited with being 
involved in bringing down the Soviet Union--or the refusal of a 
subsequent administration to acknowledge that. I mean, it 
becomes involved with Washington politics, as well.
    But, we didn't do it, and for whatever reason, the 
consequences of that became apparent in----
    Senator Wicker. All right. Let me really fast-forward 
before I let the other panelists respond. September 11, 2001, 
the Towers go down, the Pentagon is hit. Every single member of 
the House and Senate--save one--voted for us to become involved 
in Afghanistan. NATO was all on board. The United Nations was 
not standing in the way at all. It seemed that there was 
unanimous support for what we set about to do.
    Now at what point did we lose our way in the 8 years since 
then?
    Mr. Bearden. The initial response was understandable. We 
moved in very quickly. Within weeks we had Special Operations 
Forces and CIA officers on the ground.
    Senator Wicker. Did we make the correct decision?
    Mr. Bearden. On that, yes, that's just fine. What happened, 
though, is that--if you go back and reconstruct, as Steve Coll 
has done so admirably--is that we had disbursed the Taliban, 
collapsed the entire Taliban structure with less than 300 
Americans on the ground, supported by air. That--and they were 
just CIA officers and Special Operations Forces.
    A decision to turn this thing over and bring in big Army is 
one point that one would have to look at. Tora Bora is a case 
that is so hotly debated yet to this day, but the thought that 
you're going to have Afghan--certainly non-Pashtun Afghans--go 
ahead and attack the final fixed position, rather than U.S. 
Army Rangers or Special Operations Forces--was probably a 
mistake. Because Afghans don't usually do that--attack fixed 
positions or defend them. That would have been our job, and we 
might have been able to take care of something then if--you 
know, would there have been a chance to get bin Laden? I think 
people say there would have been.
    But from that point on, when we rose above those numbers, 
we changed the game for ourselves in Afghanistan, and we didn't 
understand that there's one playbook for everybody that goes in 
there. Whether it's Alexander the Great, Genghis Khan, the 
British or the Russians--there's a playbook for Afghanistan for 
foreign occupying forces, but the secret is, it is written by 
Afghans, and not by us.
    Senator Wicker. Mr. Coll.
    Mr. Coll. Let's go back to your history question and offer, 
maybe, a slightly different interpretation of the period after 
the Soviet withdrawal. I don't--by any means, hold Milt 
responsible for this, because he was off working on the Soviet 
Union at this point, which as he says, was the bigger strategic 
issue of the day--but it's important, I think, the details are 
important.
    After the Soviets left, the United States continued to 
pursue a military solution in Afghanistan. Our aid to the 
mujahideen rebels--even as they collapsed into a civil war 
amongst themselves--continued right through to the end of 1991. 
We allowed ourselves, with the Pakistan Army, to pursue a 
military campaign for the purpose of overthrowing the legacy 
Soviet Government in Kabul.
    At the time, Mikhail Gorbachev was desperate to engage us 
and the international community in negotiations to reconstruct 
stability in the region in Kabul and Afghanistan--very 
difficult work, perhaps a fool's errand--but we never took it 
up because we were convinced that we didn't have interests 
sufficient to justify the hard and uncertain work of partnering 
with regional countries to build stability in Central Asia.
    And, you know, Gorbachev, I think, was justified--he had 
his hands full--but he was justifiably puzzled about our 
attitude. Essentially, he said, ``Look, I've got a Muslim 
population across my southern rim, I don't want them to be 
infected by Islamic extremists. OK, you used anti-American 
Islamic extremists to defeat us, but truly you go down to the 
mosques on Friday and understand that they hate you just as 
much as they hate us. You've just restored a democracy in 
Pakistan, don't we have a shared interest in doing the hard 
work of building regional stability in trying to reconstruct a 
stable center in Afghanistan?''
    And we--out of distraction as much as deliberation, I think 
that's absolutely correct--rejected that course and just went 
on automatic pilot. We produced a deepening civil war, and then 
we turned around and left after 1992, and the place just 
absolutely collapsed in on itself, and the Taliban came to 
power.
    So, I do think that this vision of politics and regional 
stability--an eye on the long term and on the fact that we have 
a national interest in a stable Central and South Asia and on 
modernizing Central and South Asia--is a source of continuity 
between then and now.
    Ambassador Lodhi. Thank you for asking this question, 
because I think it will help you understand what is really 
etched on the memory of a lot of people in the region--
including in my country. The memory is one of a very hasty 
disengagement after the cold war was one, and the Soviet Union 
collapsed and the rest of the Red Army rolled out of Kabul.
    I think the haste with which the West disengaged--and when 
I say disengaged, I mean in two very significant ways--one I 
remember very clearly that Pakistan at that time had urged the 
United States to help in establishing--what was called at that 
time--an interim, transitional, provisional government in Kabul 
before signing of the Geneva Accords under which the Soviet 
troops withdrew.
    Now, many thought this was a ploy by Pakistan, but I can't 
really--I'm not here to give an interpretation of history--but 
it is factually correct that Pakistan had said, ``We must have 
a political arrangement that will hold, that will provide a 
minimum degree of stability in our region, before you hastily 
leave this region.'' But Pakistan's pleas went unheeded at that 
time.
    The second type of disengagement is--I wonder if you've 
seen the movie, ``Charlie Wilson's War''? I think it's a very 
interesting and very poignant scene where Charlie Wilson--I 
don't know whether it's factually correct, but I think 
substantively it's correct--in terms of whether he physically 
went around the corridors of Capitol Hill asking people to help 
in rebuilding Afghanistan, which had been devastated after 
decades of conflict. And he said, the United States had a 
responsibility to help the people rebuild their lives and 
rebuild their country.
    And I think the scene sort of shows people sort of turning 
out and saying, ``Well, you know, we won the war, so what are 
you coming to us for, now? I mean, tell us about where the 
latest crisis is?'' Something like that.
    So, I think this is very important and from Pakistan's 
perspective, please remember another historical fact. Within 
less than a year of the Red Army having been defeated and the 
Soviet Union imploding, Pakistan came under wide-ranging 
sanctions under the Pressler amendment, giving the Senator from 
South Dakota the kind of national fame and notoriety in my 
country which he doesn't have in this country, I know.
    So, I think it's true. What had happened was that the 
Pakistani public--and I think we are dealing with that burden 
of history, even as I speak today--which is that you have a 
large chunk of people in Pakistan who feel, ``Well, this is a 
transaction relationship, we are seen as hired help, we are not 
seen as a valued ally,'' and I'm sorry to say that much of this 
remains on the public mind in Pakistan. That this is cut and 
run, they come in, they use us, and then they walk away. So, I 
think the Pakistan component has to be understood.
    Last, when you ask about 2001 and immediately after, you 
know, the response to what had happened, the tragedy of the 
United States, I think the initial decision to use the northern 
alliance to go into Afghanistan actually doomed the project 
from the start. Because what it did was, it immediately--in the 
very initial stages--alienated the Pashtuns, given the historic 
rivalry between the northern alliance and the Pashtuns, not all 
represented by the Taliban, but still having very strong 
misgivings about the northern alliance.
    I think the moment the war was conducted in that manner, 
the Pashtun areas were lost. And then it was only a matter of 
time when the Taliban were able to make a comeback in some of 
these areas.
    Senator Feingold [presiding]. Continuing--thank you, 
Senator--I'm going to continue in the chairman's brief absence, 
and I want to commend the chairman for holding this hearing. I 
apologize for getting here late, I was at a markup of the 
Judiciary Committee on the Patriot Act--the U.S. Patriot Act--
that went right up to this time, but I--this is a terribly 
important subject.
    And I want to commend the chairman for holding the hearing 
on what, I think, is perhaps the key question facing the United 
States in Afghanistan--namely, how do we relentlessly pursue 
al-Qaeda without further destabilizing Pakistan and the entire 
region?
    I'm deeply concerned that our massive open-ended military 
presence might be contributing to the growing militancy in the 
region, including in nuclear-armed Pakistan.
    In appearances before this committee earlier this year, in 
direct response to my questions, both Special Envoy Holbrooke 
and Admiral Mullen acknowledged that our military efforts in 
Afghanistan could, in fact, push militants across the border 
into Pakistan. And it is far from clear to me that the 
predominantly military approach that we're currently pursuing 
in Afghanistan is likely to achieve its stated aims, or that it 
would have any impact on our ability to eliminate al-Qaeda's 
safe haven in Pakistan.
    So, I've already enjoyed the brief time I've had to listen 
to the witnesses, and will listen to their testimony.
    But let me ask Dr. Lodhi--I've heard some argue that the 
people and Government of Pakistan would interpret a decreased 
United States military presence in Afghanistan as a sign of 
abandonment, and an indicator of what could also happen in 
Pakistan. Given that no one here has been talking about 
abandoning Afghanistan, and certainly not cutting back on 
civilian and development aid and counterterrorism, and given 
that legislation recently passed in the Senate significantly 
increased civilian aid to Pakistan--what do you think would be 
the reaction in Pakistan to a reduction in United States troop 
levels in Afghanistan?
    Ambassador Lodhi. I think, Senator, the issue really is 
what kind of a strategy will the United States have. I don't 
think troop levels really indicate--except that if you enhance 
the troop levels, it indicates that a military solution is 
being relied upon, that that's the principal prong. And that, I 
think, very few Pakistanis would welcome an enhancement of 
troops in Afghanistan, because every troop surge has produced a 
certain effect, which has not been to achieve your objectives. 
Why should it be any different if the troop levels are 
enhanced?
    So, I think we come back to a more fundamental question, 
which is what are those troops going to do? And I don't think 
anybody in my country is yet convinced that there is some kind 
of new strategy--particularly the political power of that 
strategy--which is going to amount to doing anything 
differently.
    So, simply putting in more troops will be hugely 
destabilizing for Pakistan, it could be viewed as a very 
negative signal that will indicate that there's more of the 
same coming, and if it's more of the same, it simply means 
pushing the conflict into Pakistan's border regions, and 
actually giving the militants--which Pakistan has managed to 
contain to a very large extent in the last few months by very 
successful operations in Swat and Bajaur--it will muddy those 
waters.
    It will also distract the Pakistani forces--which I was 
saying before you came--that are already overstretched, 150,000 
are deployed, overstretched--then we have to now protect the 
ground supply lines, because supply needs will double, maybe 
triple, if you're looking at 40,000 troops--even if you're 
looking at 30,000 troops. The more they go up, the Pakistan 
Army will be expected to protect those. We will be distracted 
from our own counterinsurgency missions that are going on right 
now, very effectively.
    Senator Feingold. Thank you, and Doctor, thank you for your 
answer.
    And Mr. Coll--Dr. Lodhi apparently already alluded to this, 
but I'm very concerned about corruption within the Afghanistan 
security forces, particularly the police, as well as the 
political implications of vastly expanding an Afghan Army that 
is characterized by ethnic fissures and subject to the command 
of a civilian government of questionable legitimacy.
    Is there a possibility that we're creating a security 
apparatus that could someday contribute to instability--to 
instability within the region?
    Mr. Coll. I think that's a very important question, and a 
question that isn't asked often enough in this discourse about 
new strategies.
    Indeed, in Washington, it seems as if across all points of 
view, this idea of rapidly building up the Afghan Army and the 
Afghan police is a consensus view that nobody ever pokes 
against.
    And I think that the recent history of Afghanistan 
certainly should give rise to an understanding that there are 
real risks of exactly the sort that you describe.
    I can think of four instances in Afghanistan over the last 
several decades where political disunity in Kabul, factionalism 
and unresolved ethnic and other kinds of identity politics 
problems in Afghan politics have infected the security services 
and the army and caused them to fall apart, or to divide, or to 
dissolve altogether.
    In fact, you could argue that, at least in a technical 
sense, the Afghan Army fielded against insurgents, has never 
been entirely defeated, but it has literally dissolved, for 
lack of political glue, on a number of occasions. That's what 
happened to the Soviets in the 1970s, when they were building 
up Communist cells, it got so bad they had to invade, they came 
in--the army dissolved again on them--they built it up until 
1992 in Najibullah after the Soviet Union left, had his army 
dissolve on him, as well.
    And, again, in the mid-1990s when the northern alliance 
forces tried to build an army in the same way, factionalism in 
the round cabinet caused the army to melt away in the face of 
the Taliban. The Taliban didn't really conquer Afghanistan by 
military force, they took advantage of this structural flaw in 
the security forces that they were defending.
    So, I don't take it for granted that the American project 
of rapidly building up Afghan security forces is doomed, but I 
think it's a--there are serious risks in the project, and 
obviously the evidence to date is that those risks are 
especially acute in reference to the police. I've heard figures 
of attrition and turnover and corruption that are just 
appalling. And I've heard people say, as bad as you think the 
project of building up a stable, noncorrupt, Afghan police is, 
it's worse. The army gets better marks, but even there its 
ultimate viability depends on political strategy in 
Afghanistan, because it will never stand firm unless the center 
is also firm.
    Thank you.
    Senator Feingold. Thank you.
    Finally, Mr. Bearden, the stated goal of U.S. troop 
increase is to ensure, of course, that the Afghan Government 
has control of its territory, to the exclusion of the Taliban. 
Is that an achievable objective? Has that ever been the 
situation in Afghanistan? And is that the only way to prevent 
al-Qaeda from establishing a safe haven in Afghanistan?
    Mr. Bearden. Let me first comment, just for a second, on 
the last question, as well.
    Right now, the ethnic mix in the National Army is roughly 
60 percent Tajik, Hazara, Uzbek, and others--non-Pashtuns. 
Pashtuns are around 40 percent--they have taken note of that. 
The challenge of taking a Pashtun tribal fighter--and turning 
him into a national soldier, when he doesn't believe there's a 
nation that represents him, is a challenge.
    The other issue is that as we build forces regionally--
rather than letting them rise in a more natural way--we may be 
repeating the errors of the Soviets. When I was involved in the 
anti-Soviet resistance movement, they created large numbers of 
militias all over the country, and armed them, and they turned 
out to be a wonderful source of inexpensive weapons for our 
project. I just went to their Quarter masters and paid them, 
and bought all of this stuff, and saved on shipping charges. 
So, we have to bear that in mind and understand how it all 
worked.
    Now, I don't think anybody is going to expect us to 
construct a national army that regains territory. I think 
they're going to have to talk it through. I don't think that 
anybody is going to win that fight. I think it's an ethnic 
issue. I think if the Afghans have their own strategy in doing 
this, they'll be able to come up with a solution that we're not 
capable of articulating. So, I don't see a military solution 
for us or the Afghans.
    Senator Feingold. Thank you. The committee will stand in 
recess until the chairman returns.
    [Recess.]
    The Chairman [presiding]. I apologize--I was on the phone 
in the back, there. So many things going on, trying to do 
health care while I do this.
    But I do have some questions that I want to follow up on if 
we can, just quickly before we break up, here.
    Disrupt, dismantle, defeat al-Qaeda. That's our goal in 
Afghanistan. But to the best of my knowledge, al-Qaeda is not 
really in Afghanistan today. Can you comment on that, Mr. 
Bearden?
    Mr. Bearden. I might take it even a step further, Senator. 
I think that al-Qaeda has--to a large degree--been disrupted 
and dismantled. Earlier, I commented that it is part of our 
canonical belief that they're all in Pakistan, and I don't 
think we have any firm evidence of that. I've talked to people 
from the tribal areas, and they say, ``Well, yeah, he'd be 
protected if he were in that valley,'' but there's not even a 
whisper. And you can't even have a strange bird fly into that 
valley without the cousins of the next valley knowing, and they 
would start whispering about it.
    So, you know, I would be heartened if that was our goal, 
because I think we will discover that we've achieved it.
    The Chairman. Well, that's what I want to hone in on, here. 
And I want to try if I can press you, sort of, for a fast set 
of answers simply because we're time-pressed a little bit, 
but--therefore, I mean, that's my judgment right now. I look at 
it, and I say
al-Qaeda's in a lot of different places, but it certainly isn't 
any central sort of focus in Afghanistan.
    And then we get to the ``prevent the return'' sort of 
concept. Now, I've interpreted that as preventing them from 
having a sanctuary, a training camp, plotting, because who 
knows? If somebody returns one day and goes out, or whatever. 
It seems to me that we have to examine that.
    Is this entire counterinsurgency operation that General 
McChrystal wants to engage in to create some kind of country in 
Afghanistan where we feel comfortable that they can't return? 
And how likely is this return, given what you just said about 
the relationship between al-Qaeda and the capacity, you know, 
ultimately, if the Taliban took over Afghanistan? Which we 
don't like--but is it likely? Is it a certainty? Are there odds 
as to what happens with al-Qaeda?
    Mr. Bearden. Well, this is all opinion, but one has to 
reconstruct what we were dealing with in the 1990s. You had 
several things happen, you had--first, during the anti-Soviet 
period, a significant number of Arabs filtered into the region, 
into Pakistan and they went over and they didn't play a major 
role in the combat, but it was sort of an Arab, Club Med-Jihad 
thing combined.
    There was a little emptying of prisons across the Arab 
world, letting these guys go off into the region with the fond 
hope they might step on a mine. Then they left Afghanistan when 
the Soviets left, and went back home full of plans to change 
things there. They found out that that wasn't going to work. 
So, then the Soviet Union falls in the playgrounds that some of 
them enjoyed in Eastern Europe, were closed to them, and then 
the Sudanese kicked bin Laden out of Sudan.
    And so it ended up as the end of the line where they all 
were. And then the seething thing that followed, that created 
the plotting and then the camps in Afghanistan--or in Hamburg, 
for all that matter where Muhammad Atta was--happened and then 
9/11 happened.
    Now, I think we would also find that preventing that from 
recurring in Afghanistan wouldn't be too hard. I don't see 
that--all of those planets lining up, again, ever.
    The Chairman. When you say--now, this is very important. 
This is a very important thing to try to focus in on. 
Preventing that from happening again, preventing al-Qaeda from 
getting that kind of foothold, you think is much easier than 
having 100,000 troops, or 67,000 troops?
    Mr. Bearden. I think if we do some of the things that have 
been discussed here today and that are obviously on the table 
with the President's review, that much of that could--only 
happened in the 1990s because we had completely left the 
field--including Pakistan.
    The Chairman. And, best judgments here, are there ways to 
do things where you don't completely leave the field?
    Mr. Bearden. Well, of course you don't completely leave the 
field, but that doesn't mean you have to have 120,000 ISAF 
troops in the field, either.
    The Chairman. Do you agree with that, Mr. Coll?
    Mr. Coll. The last part, although----
    The Chairman. What do you disagree with on the first part?
    Mr. Coll. Well, you seem to be asking whether we could 
permit the Taliban to take control of the Afghan state.
    The Chairman. I'm not. I don't want to prevent--I'm asking 
what happens if they did?
    Mr. Coll. If they did, whether or not the return of al-
Qaeda would be a significant risk? And I think it would be. I 
think that al-Qaeda seeks a state, and if the Taliban provided 
a state, they would find ways to capture it--as they did before 
in Afghanistan in the 1990s.
    The Chairman. Let me go to the correlating question, then. 
Are there ways for us to think, as we reevaluate this policy, 
about ways of preventing al-Qaeda--not al-Qaeda, excuse me--
sort of having, I think one of you mentioned this earlier--one 
of your goals is, the Taliban are not going to take over.
    Mr. Coll. Right.
    The Chairman. And ways to prevent that that involve far 
less troops and a far lesser kind of strategy.
    Mr. Coll.
    Mr. Coll. Yes, I think we are all three in agreement to 
versions of answers to that question and that really a 
question--another way to ask your question would be to say, 
what is the minimum level of American troops necessary to 
guarantee, credibly, that the Taliban will never take control 
of the Afghan state, and to guarantee--or to invest in the 
prospect--of Afghan stability, sufficient Afghan stability, to 
finish the job politically, regionally, and otherwise--and to 
allow the Pakistani state to find its own success, because 
ultimately the ticket home--for everybody--is through Islamabad 
and Delhi.
    So, if you can define the question that way, then it 
becomes a technical question. And I don't know what General 
McChrystal's advice is about that, because I'm not entirely 
certain what the additional troops are meant to achieve. If the 
answer is that they're out patrolling rural districts along the 
border for the sake of population security in villages, you 
know, that's one thing. If the answer is, ``This is the number 
that's necessary to meet the answer to that question--Taliban 
can never take cities, hold cities, can't take the state and 
the country will become more stable,'' then I'd be interested 
in that.
    The Chairman. To what degree does the narcotics trade and 
Helmand play into this, in terms of our ability to achieve any 
of these goals?
    Mr. Coll. The Taliban have diverse sources of finance 
which, narcotics is certainly one. But going after farmers in 
Helmand is not the way to disrupt their access to that revenue 
stream. It's also important to recognize that the Taliban's 
financing comes from other sources, besides poppy growing. They 
tax roads, they tax local citizens, they tax people for 
providing them justice and other services that look like a 
government, and they also have access to funding from the 
Persian Gulf that may be an even larger part of their revenue 
flows than narcomoney.
    I do think that the Helmand operation demonstrates once 
again that cost of putting poppy farmers on the front lines of 
a counternarcotics strategy far outweigh the benefits, 
especially if it's the United States that's carrying out that 
kind of combat.
    The Chairman. Mr. Bearden, how much footprint is necessary, 
in your judgment, to be able to carry out the counterterrorism 
goal with respect to al-Qaeda itself?
    Mr. Bearden. Let me clarify an earlier statement, briefly. 
I'm not suggesting that I would be OK with the Taliban taking 
over the country, but primarily because I don't think they can, 
I think that is not going to be a repeat of the 1990s, as well.
    The Chairman. They can't no matter what we do, or they 
can't?
    Mr. Bearden. I think that Afghanistan won't go through that 
particular game again. I think there could be some very nasty 
events if we just walked away, and we don't want to do that----
    The Chairman. Civil wars, Tajik, Hazara--?
    Mr. Bearden. They'd have to be sorting things out, and 
that's almost never pretty. But right now, the Pashtuns 
perceive a major imbalance of what they think is the natural 
way for Afghanistan--right or wrong--they view us there as 
propping up a Tajik-Panjshiri government. And there are more 
Tajiks in the army than there are Pashtuns in the army at this 
moment, which is an imbalance, in their view.
    But, do I think we would return to the point where you've 
got Taliban, Pashtun-Taliban marching on Mazar? I don't know 
that I see that again, nor that our troop presence there has to 
prevent that.
    I do think that the United States is going to have to stay 
there for the long haul with a new strategy, but I do not see 
that kinetics are going to be a huge part of that strategy.
    The Chairman. I have that as a central comment--I mean, 
that is really an important comment that you've made, and I 
think it's embraced in what Mr. Coll and the Ambassador have 
said, and in our own thinking. And I hope down at the White 
House--I would assume, in some of their thinking--although I'm 
not certain, given some of the things that I've heard.
    Sitting with the Secretary General of NATO the other day, I 
sort of questioned him about it, felt like, you know, we're 
heading off into this grand counterinsurgency strategy. And I 
think that's what the President is examining very, very 
closely, right now, whether that's the way to go here.
    My next question to you, in line with that, would be how do 
we achieve the even newer--let's say that we adopt a different 
sense of how we want this presence, and it is less kinetic, 
less military, more focused on these other things. How do we do 
that with a government that has proven itself to be completely 
dysfunctional, even corrupt and at this point, therefore, 
greatly affecting the pegs of counterinsurgency of either 
security or development?
    Mr. Bearden. Two points I'd make. The first is--that we 
haven't mentioned up until now is--many of the numbers of 
American troops increases, in reality, would reflect replacing 
NATO troops that are going to be gone by the end of next year, 
or the end of 2011, at any rate. So, you know, that may be 
built into the thinking of General McChrystal, because we're 
going to see NATO, I think--the Canadians have already passed 
their legislation getting out in 2011, and others will leave. 
So, it will be an American show if we're in the long haul.
    Now----
    The Chairman. You don't think NATO will commit to make this 
a longer commitment? Because that's going to affect, greatly, I 
think how the American people view this?
    Mr. Bearden. Well, you are seeing some that are bearing the 
brunt of--the non-American troops that are bearing the brunt of 
the battle--are going to leave. I mean, the Canadians have 
already made their statement, we'll watch the British.
    The Chairman. But, if we're talking about a less kinetic 
effort, one hopefully is looking at, then, making a greater 
commitment to these other things that we're talking about that 
make a difference.
    Mr. Bearden. That's right.
    The Chairman. Do you agree with that, Ambassador?
    Ambassador Lodhi. May I--Mr. Chairman, say that I've lived 
in, traveled in Europe a great deal, very recently. The war is 
hugely unpopular in Europe. I don't know what NATO's Secretary 
General may have said, he comes from a small country. But the 
big nations that are doing counterinsurgency--and the very few 
nations in NATO that are doing counterinsurgency--that's 
exactly where the public support is evaporating. And I think we 
have to bear that in mind.
    But, if you'll allow me one quick point about al-Qaeda--I 
think the assessment in Pakistan is that al-Qaeda's capacity to 
mount mass casualty attacks on the West, including the American 
mainland--has been very sharply curtailed; al-Qaeda has been 
degraded, but it has not been eliminated. It exists, but it 
exists--and I want to draw some attention to this, because I 
think we've spent a lot of time on conceptualizing everything 
through military terms, and then the three of us agreed that we 
need a political strategy.
    Al-Qaeda exists more as an idea today. What it does, is, it 
has an inspirational effect across where there are Islamic 
communities that are alienated or disaffected from wherever 
they're living.
    I think we need to also address attention, not just to how 
to fight al-Qaeda militarily, but also deal with it 
ideologically. I think Europe has done a great deal on this 
count, the United Kingdom has--I think the United States needs 
to look at ways in which we can develop counternarratives, and 
we can have ideological counterresponses. Because this is the 
appeal that we must seek to diminish, because the sanctuaries, 
in terms of the physical sanctuaries--I think we will be able 
to manage. It is the sanctuaries in people's minds that we need 
to deal with.
    The Chairman. Well, I want to thank all of you. I, 
personally, have a lot more questions I could ask, and I'm 
going to ask them of you, but just not here, now. I'd like to 
ask of you to be available in these next days. I'm going to 
Afghanistan and Pakistan shortly, and I would like to think 
through, very carefully, the things that I ought to be making 
sure I'm properly focused on when I go over there.
    So, if we could continue this discussion, we would be 
enormously helped by it.
    And I thank you for today. This is very, very interesting, 
very instructive, stimulating and challenging in a lot of ways. 
And you've given us a lot of food for thought, which is what a 
good hearing like this ought to do.
    So, I thank you for taking part in it.
    And, Mr. Bearden, thank you so much for your service. We 
have great respect and admiration for it, I appreciate it.
    We stand adjourned.
    [Whereupon, at 12:45 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
